<html>
<title> - JOBS, JOBS, JOBS: TRANSFORMING FEDERAL HIRING</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





             JOBS, JOBS, JOBS: TRANSFORMING FEDERAL HIRING

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON FEDERAL WORKFORCE,
                    POSTAL SERVICE, AND THE DISTRICT
                              OF COLUMBIA

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 19, 2010

                               __________

                           Serial No. 111-91

                               __________

Printed for the use of the Committee on Oversight and Government Reform



                  U.S. GOVERNMENT PRINTING OFFICE
  62-944 PDF              WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                   EDOLPHUS TOWNS, New York, Chairman
PAUL E. KANJORSKI, Pennsylvania      DARRELL E. ISSA, California
CAROLYN B. MALONEY, New York         DAN BURTON, Indiana
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             MARK E. SOUDER, Indiana
JOHN F. TIERNEY, Massachusetts       JOHN J. DUNCAN, Jr., Tennessee
WM. LACY CLAY, Missouri              MICHAEL R. TURNER, Ohio
DIANE E. WATSON, California          LYNN A. WESTMORELAND, Georgia
STEPHEN F. LYNCH, Massachusetts      PATRICK T. McHENRY, North Carolina
JIM COOPER, Tennessee                BRIAN P. BILBRAY, California
GERALD E. CONNOLLY, Virginia         JIM JORDAN, Ohio
MIKE QUIGLEY, Illinois               JEFF FLAKE, Arizona
MARCY KAPTUR, Ohio                   JEFF FORTENBERRY, Nebraska
ELEANOR HOLMES NORTON, District of   JASON CHAFFETZ, Utah
    Columbia                         AARON SCHOCK, Illinois
PATRICK J. KENNEDY, Rhode Island     BLAINE LUETKEMEYER, Missouri
DANNY K. DAVIS, Illinois             ANH ``JOSEPH'' CAO, Louisiana
CHRIS VAN HOLLEN, Maryland
HENRY CUELLAR, Texas
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
PETER WELCH, Vermont
BILL FOSTER, Illinois
JACKIE SPEIER, California
STEVE DRIEHAUS, Ohio
JUDY CHU, California

                      Ron Stroman, Staff Director
                Michael McCarthy, Deputy Staff Director
                      Carla Hultberg, Chief Clerk
                  Larry Brady, Minority Staff Director

Subcommittee on Federal Workforce, Postal Service, and the District of 
                                Columbia

               STEPHEN F. LYNCH, Massachusetts, Chairman
ELEANOR HOLMES NORTON, District of   JASON CHAFFETZ, Utah
    Columbia                         MARK E. SOUDER, Indiana
DANNY K. DAVIS, Illinois             BRIAN P. BILBRAY, California
ELIJAH E. CUMMINGS, Maryland         ANH ``JOSEPH'' CAO, Louisiana
DENNIS J. KUCINICH, Ohio
WM. LACY CLAY, Missouri
GERALD E. CONNOLLY, Virginia
                     William Miles, Staff Director










                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 19, 2010.....................................     1
Statement of:
    Berry, John, Director, Office of Personnel Management........    10
    McManus, Tim, vice president for education and outreach, 
      Partnership for Public Service; Stephen Crosby, dean, John 
      W. McCormack Graduate School of Policy Studies, University 
      of Massachusetts; Tim Embree, legislative associate, Iraq 
      and Afghanistan Veterans of America; Maureen Gilman, 
      legislative and political director, National Treasury 
      Employees Union; Jacqueline Simon, Public Policy Director, 
      American Federation of Government Employees, AFL-CIO; and 
      David Holway, national president, National Association of 
      Government Employees (SEIU/NAGE)...........................    43
        Crosby, Stephen..........................................    59
        Embree, Tim..............................................    65
        Gilman, Maureen..........................................    73
        Holway, David............................................    95
        McManus, Tim.............................................    43
        Simon, Jacqueline........................................    82
Letters, statements, etc., submitted for the record by:
    Berry, John, Director, Office of Personnel Management, 
      prepared statement of......................................    13
    Chaffetz, Hon. Jason, a Representative in Congress from the 
      State of Utah, prepared statement of.......................     9
    Connolly, Hon. Gerald E., a Representative in Congress from 
      the State of Virginia:
        Letters of interest......................................    31
        Prepared statement of....................................    28
    Crosby, Stephen, dean, John W. McCormack Graduate School of 
      Policy Studies, University of Massachusetts, prepared 
      statement of...............................................    61
    Embree, Tim, legislative associate, Iraq and Afghanistan 
      Veterans of America, prepared statement of.................    67
    Gilman, Maureen, legislative and political director, National 
      Treasury Employees Union, prepared statement of............    75
    Holway, David, national president, National Association of 
      Government Employees (SEIU/NAGE), prepared statement of....    97
    Lynch, Hon. Stephen F., a Representative in Congress from the 
      State of Massachusetts:
        Prepared statement of....................................     6
        Prepared statement of the American Legion................     2
    McManus, Tim, vice president for education and outreach, 
      Partnership for Public Service, prepared statement of......    45
    Simon, Jacqueline, Public Policy Director, American 
      Federation of Government Employees, AFL-CIO, prepared 
      statement of...............................................    84

 
             JOBS, JOBS, JOBS: TRANSFORMING FEDERAL HIRING

                              ----------                              


                        WEDNESDAY, MAY 19, 2010

                  House of Representatives,
Subcommittee on Federal Workforce, Postal Service, 
                      and the District of Columbia,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:07 p.m. in 
room 2154, Rayburn House Office Building, Hon. Stephen F. Lynch 
(chairman of the subcommittee) presiding.
    Present: Representatives Lynch, Norton, Cummings, Kucinich, 
Connolly, and Chaffetz.
    Staff present: Jill Crissman, professional staff; Aisha 
Elkheshin, clerk/legislative assistant; William Miles, staff 
director; Dan Zeidman, deputy clerk/legislative assistant; Rob 
Borden, minority general counsel; Howard Denis, minority senior 
counsel; Marvin Kaplan and Mitchell Kominsky, minority 
counsels; and Alison Prentschler, minority staff member.
    Mr. Lynch. Good afternoon. The Subcommittee on Federal 
Workforce, Postal Service, and the District of Columbia hearing 
will now come to order.
    I would like to welcome our ranking member, Mr. Chaffetz of 
Utah, members of the subcommittee, hearing witnesses and all of 
those in attendance.
    The purpose of today's hearing is to review recent 
regulatory changes to hiring, such as shared registers, the 
upgraded USAJOBS Web site, and the veterans' employment 
initiative, as well as to consider proposed legislative 
initiatives.
    The chairman, the ranking member, and the subcommittee 
members will each have 5 minutes to make an opening statement, 
and all Members will have 3 days to submit statements for the 
record.
    I would also like to ask unanimous consent that the 
American Legion's statement be submitted for the record.
    Hearing no objections, so ordered.
    [The prepared statement of the American Legion follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Lynch. I now yield myself 5 minutes for an opening 
statement.
    Ladies and gentlemen, those of us assembled here this 
afternoon, no matter our political stripes or whether an 
applicant, union member, manager, or current Federal employee, 
unanimously agree that the Federal Government's hiring system 
falls short of the optimum. Since our Nation is experiencing 
numerous and complex challenges that require smart, capable 
individuals who possess the necessary skills and leadership 
abilities to ensure our future, it is critically important that 
the Federal Government, as an employer, be able to easily 
recruit and hire qualified candidates.
    Unfortunately, this has not been the case over the past 
several years, which is why I have called today's hearing to 
discuss how best to improve the Federal hiring process.
    The American public expects merit-based hiring for public 
service jobs, and rightfully so; however, this is easier said 
than done since enactment of the Pendleton Act, which 
established the Nation's adherence to public notice and 
competition for Federal employment opportunities. Much debate 
has occurred on this topic, ranging from what assessment tools 
and standards should be used to evaluate applicants to where 
positions should be advertised and how candidates should 
ultimately be selected.
    Additionally, the Federal Government has long stood by its 
commitment to hire individuals with military service. And, 
given the large number of veterans stemming from Operation 
Iraqi Freedom and Operation Enduring Freedom and Afghanistan, 
it is critical that we continue to uphold this pledge. At the 
same time, scores of college graduates are eager to answer the 
call of service. It is my hope that, working with all of you in 
this room, we can craft a hiring structure that will fulfill 
our obligations to our veterans, as well as allow for the 
advancement of existing employees and the on-boarding of recent 
degree recipients.
    The Federal Government as an employer must also be engaged 
in ensuring that a diverse set of individuals are recruited and 
retained so that the public servants that are charged with 
performing the people's business ultimately reflect our 
Nation's society.
    During a time of high unemployment, as an employer the 
Government has a special responsible to ensure that its 
citizens are aware of job openings and that the application 
process is completed as swiftly and as fairly as possible; 
thus, I anticipate the testimony and feedback we will receive 
from today's witnesses will provide the subcommittee an 
opportunity to assess Federal hiring in general, as well as a 
chance to review recent executive branch hiring programs such 
as the veterans' hiring initiative, the revamped USAJOBS Web 
site, and the shared registers and, of course, the President's 
hiring reform memorandum that was issued just last week.
    I am glad that the subcommittee is joined by the Office of 
Personnel Management Director, John Berry, who, as a champion 
of our Federal work force, has been tenaciously focused on 
advancing hiring reform for the Federal Government.
    Again, I thank each of you for being with us this afternoon 
and I look forward to your participation.
    [The prepared statement of Hon. Stephen F. Lynch follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Lynch. I will now yield 5 minutes to the ranking 
member, Mr. Chaffetz of Utah.
    Mr. Chaffetz. Thank you, Mr. Chairman, and thanks to you, 
Director Berry. I want you to know I sincerely appreciate the 
cooperative spirit that you bring to working with the 
subcommittee, and with both of our staffs on both sides of the 
aisle. That is very much appreciated and we thank you for being 
here today, and the other witnesses that will testify on the 
second panel, as well.
    I do support the Office of Personnel Management's efforts 
to streamline and reduce the bureaucratic red tape, the Federal 
recruiting and hiring process. I am very sympathetic with the 
idea that it takes 160 days, and trying to reduce that down to 
80 days. Even 80 days to me seems like much too long to have to 
go through the process for fulfilling a position. If suddenly 
an employee were to leave, for whatever reason, and there was a 
gaping hole, it seems like a very long, convoluted process that 
can certainly be streamlined. I am very sympathetic with those 
goals and concur with the goals along the way.
    At the same time, there are a number of concerns with the 
Federal work force and I'm sure this won't be easy. The Federal 
Government already employs approximately 2.8 million civilian 
employees and is experiencing a robust expansion of 
unprecedented levels. Perhaps this discussion is there for 
another day.
    When we talk about jobs, jobs, jobs, I am more concerned 
about jobs in the private sector, not the public sector, but, 
nevertheless, given the administration's push for the growth 
and expansion of Government, we are going to have to deal with 
the fact that we need to hire people at unprecedented rates.
    I am concerned about the trend and believe that the hearing 
presents an opportunity to examine how to maximize the 
efficiencies of the Federal work force and certainly try to 
become closer to what is already happening in the private 
sector.
    We have the average age of the Federal work force rising. 
We have retention rates that are much greater than in the 
private sector because of these high-paying jobs with good 
benefits. At the same time, we have an aging work force, and we 
need to consider hiring practices that can fill the looming 
gap. Our troubled economy has created a dynamic with more and 
more people looking for jobs than ever before. Prospective 
employees are no doubt seeking greater stability, higher pay, 
and attractive benefits that Federal employment has to offer.
    The American public, who on average earn significantly less 
in wages and benefits than Federal employees, rightfully demand 
their money be spent wisely and efficiently, something that 
cannot be said of the current Federal employment system. 
However, the administration is attempting to address some of 
these inefficiencies and I applaud them in those efforts.
    Last week the President issued a memorandum intending to 
improve the recruitment and hiring of Federal employees, and I 
applaud these proposed reforms. I do have some specific 
questions and things that will need further clarification as we 
move forward, and hopefully they will all be successfully 
implemented.
    Today's hearing allows us to engage in a spirited 
discussion of the administration's recent memorandum and other 
initiatives, especially since Federal human resource management 
is one of our key oversight functions.
    I look forward to hearing from the witnesses today.
    I do believe there are some other issues that we will need 
to address, although not directly on topic. I think the idea 
and the notion that current Federal employees should be paying 
their Federal taxes and that potential Federal employees should 
be current in paying their Federal taxes is an issue that I 
will not let go of, and I think we need to address it sooner 
rather than later.
    Obviously, we have issues with veterans, with the intern 
program that I know Congressman Connolly and others are working 
on, Congressman Bilbray from the Republican side of the aisle. 
We will have to explore those ideas, as well.
    But again, Mr. Chairman, I want to thank Director Berry for 
being here and the cooperative spirit that he brings to us and 
look forward to the hearing.
    I yield back. Thank you.
    [The prepared statement of Hon. Jason Chaffetz follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Lynch. I thank the gentleman.
    The Chair now recognizes the gentlelady from the District 
of Columbia, Ms. Eleanor Holmes Norton, for 5 minutes.
    Ms. Norton. First, Mr. Chairman, I just want to commend, 
compliment, and thank you for letting no grass grow under your 
feet after this Executive order before calling us right here so 
that we can get moving on this right away. The complaints don't 
begin with this administration, they seem to be ad infinitum.
    Of course, what the President has done raises other 
questions. I commend the President for as far as he has gone, 
and believe that we can go the rest of the way under your 
leadership, Mr. Chairman.
    Thank you very much.
    Mr. Lynch. I thank you.
    It is the committee policy that all witnesses are to be 
sworn. Could I ask you please to rise and raise your right 
hand.
    [Witness sworn.]
    Mr. Lynch. Let the record show that the witness has 
answered in the affirmative.
    I will offer a brief introduction, and then we will proceed 
to questions.
    Mr. John Berry serves as Director of the U.S. Office of 
Personnel Management, which manages the Federal Government's 
Civil Service. Prior to Mr. Berry's appointment, he was the 
Director of the National Fish and Wildlife Foundation and the 
Director of the Smithsonian Zoological Park. He also served as 
Assistant Secretary for Policy, Management, and Budget of the 
Department of Interior during the Clinton administration.
    We welcome you, sir, and I recognize you for 5 minutes for 
an opening statement.

    STATEMENT OF JOHN BERRY, DIRECTOR, OFFICE OF PERSONNEL 
                           MANAGEMENT

    Mr. Berry. Thank you, Mr. Chairman, Ms. Norton, and Mr. 
Chaffetz. I appreciate the opportunity to be with you today to 
discuss many of the initiatives that the President put into 
motion last week and to go into those in greater detail with 
you.
    The President issued a memorandum directing agency heads to 
take specific actions to improve Federal recruitment and hiring 
processes by November 1st of this year. These actions include 
eliminating requirements that applicants answer long essay-
style questions as part of their initial application for a 
Federal job. This requirement has discouraged many applicants 
qualified to work for the Federal Government over the years, 
and I believe their competencies, as the President determined, 
as well, can be assessed in better and less burdensome ways.
    The President's memorandum allows applicants to use a 
simple resume and a cover letter as their application for 
Federal employment. Alternatively, agencies may allow 
applicants to complete a very simple, plainly written 
application form or a packet. No matter what approach, agencies 
must use valid and reliable tools to assess applicant 
qualifications.
    The President is also directing agencies to use category 
rating method in selecting candidates rather than the 
traditional rule of three. This means selection will not be 
limited to just three candidates, alone. Instead, under 
category rating applicants are placed into one or two or more 
quality categories and, of the candidates in the highest 
quality category, can be considered for selection, and 
veterans' preference. And all of the veterans' preference rules 
under the law still apply.
    Finally, the President's memorandum directs agencies to 
ensure that supervisors and managers are more involved in the 
hiring process, which has not been the case, including work 
force planning, recruitment, and interviewing. You cannot 
delegate an interview to an HR manager. The hiring manager is 
the one who has the experience with what the job requirements 
are. They need to do that interview and make those 
determinations.
    Finally, we have been working with OMB for months to be 
ready to roll this memorandum out. To that effect, we issued a 
guidance memo to agencies last week. OPM is deploying mobile 
assistance teams to allow immediate response to agencies that 
request them. Many of the larger agencies are already rolling 
in this regard. We are going to be setting up Web sites where 
we can share best practices so that smaller agencies that might 
be running a little behind can stay in the game by following 
best practices throughout the Government, and we will be 
assisting in that regard.
    I would like to highlight, if I could, one of the most 
important issues for the President, and my highest priority. in 
fact, it was the first issue I began to tackle after sworn into 
this position, and that was increasing our veterans' employment 
throughout the Federal Government, especially in the civilian 
side of the house. I believe the unemployment rates that our 
men and women returning from the middle east right now are the 
highest in history. They are over 28 percent. They are 
unacceptable to me, and they are unacceptable to this 
President. We are fully committed to reversing and lowering 
those numbers and to increasing the number of veterans hired 
throughout the civilian side of the Federal Government.
    To that end, last November the President issued Executive 
Order No. 13518. That order reinforced OPM's partnership with 
the Departments of Defense, Labor, Veterans affairs, and 
Homeland Security, along with all the rest of the Government, 
in promoting the employment of veterans throughout our 
Government.
    We have made good progress in the first 6 months of that. 
OPM has issued our strategic plan in that regard that will 
guide us through 2012. That is available on our Web site. It 
focuses on dismantling barriers to veterans' employment by 
reinvigorating leadership commitment to the employment of 
veterans, providing employment counseling to veterans and 
opportunities to develop their skills, creating a marketing 
campaign to promote veterans' hiring throughout the Government, 
and establishing a one-stop information gateway for employment 
information plus resources for veterans staffed by veterans.
    The other two things we are working on I am happy to 
report, Mr. Chairman, the council that the President's 
Executive order has met twice. We now have standing in place in 
26 Federal departments full-time veterans' hiring officials; 
that is, not collateral duty, as it has been in the past. So we 
have committed true resources on this. We are building a 
network so that we can share and match skills of our veterans 
who are returning with actual jobs in the Federal sector.
    I am also pleased to report I just returned from New York, 
where I was very honored to meet with the HR directors for over 
200 Fortune 500 companies in the private sector. I asked them 
to consider allowing us to extend these opportunities for our 
veterans not only in terms of the Federal Government but into 
the private sector, as well, and to see if we could develop a 
system to share resumes that would be legal and appropriate.
    I have to tell you I was extremely pleased by the response, 
and they are working with us in that regard, and we are going 
to be setting up a model program with both the Veterans Affairs 
and the Department of Labor. I have to tell you, Assistant 
Secretary for Veteran Affairs at Labor, Ray Jefferson, is just 
one of the best in Government and he is a delight to work with.
    So I am very pleased. I think we are making great progress 
on this, and in the year ahead I think you are going to see 
those unemployment numbers come down because of it.
    Finally, I will wrap up because I know I am at the end, 
sir. We are working on overhauling USAJOBS. The next up, the 
President directed me to report back in 90 days on two last 
very critical things that are linked into this: how do we bring 
students effectively into our Government and do that 
responsibly and effectively, and then, finally, increasing the 
diversity within our Government, making sure that we have open 
access for all communities throughout our country. We are 
working hard on all of those regards, Mr. Chairman.
    I am very pleased to answer any questions that you or the 
committee might have.
    [The prepared statement of Mr. Berry follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Lynch. Thank you, Mr. Berry. We appreciate that.
    Here is what I am concerned about. I appreciate the work 
that you are doing on veterans' hiring. I think that is a noble 
and a correct initiative for this country to take. These folks 
put on the uniform, our men and women. They look like the 
American population, as well. And there is the added discipline 
and experience, patriotism that they have demonstrated. I am 
concerned that the non-competitive processes that have evolved 
would actually diminish the number of veterans that are hired.
    We have right now probably a quarter of a million men and 
women in uniform in Iraq and Afghanistan right now.
    Mr. Berry. Yes.
    Mr. Lynch. As you said, the unemployment rate of these 
folks coming back is astronomical. That should not be.
    I have seen, from this position as chairman, attempts by 
some agencies to completely circumvent the veterans' hiring 
process, and not just with a few people, but to obtain 
basically a waiver from hiring veterans. That concerns me 
greatly.
    It seems, when I look across Government, some agencies do 
very well. If you talk about Department of Defense, obviously, 
they do a great job. I have seen great hiring at the Post 
Office, the U.S. Postal Service, very aggressive in trying to 
bring veterans into the work force. Treasury, not as well. So 
it is a real hit or miss. We have seen Department of Homeland 
Security, they have adopted a system that goes completely 
around the veterans hiring preference, and you would think 
Homeland Security would be something that our veterans coming 
out of the service might have an actual strength in. That is 
mind-boggling, to say the least.
    So, while I understand we need to fix this system, and I 
think you have done great work here getting rid of that essay, 
that sort of anachronism to an earlier time, although I think 
in some positions strong writing skills are very, very 
important, but I don't think it should be the threshold 
inquiry.
    How do I know next month, if we adopted this today, how do 
I know that next month my veterans are still being hired? How 
do I know that by opening the door to some young people coming 
out of college and who are extremely well trained and capable, 
we are not closing the door to some of my veterans, because 
that just cannot happen?
    Mr. Berry. Mr. Chairman, my personal commitment to you and, 
I believe I can convey, as well, of the President, is that 
there is no intention to do whatsoever anything that would 
restrict or reduce our commitment to hiring veterans. In fact, 
we want to increase the number of veterans we are hiring across 
the board. So we are watching these numbers very carefully on a 
month-to-month basis.
    I believe in leading by example. OPM is one of those 
civilian agencies that we do a good job of hiring veterans. We 
range between 25 and 30 percent of our hires, our new hires, 
are veterans. Now, across the Federal Government that ranges. I 
don't want to imply that applies everywhere.
    One of the reasons we pursued the President's Executive 
order last November was some agencies, as you mentioned, Mr. 
Chairman, are as low as 5 percent. Some, like DOD, are at 50 
percent. Obviously, they are doing a fantastic job. The VA does 
a fantastic job. Homeland Security, sir, actually does a pretty 
good job. They are in that 15 to 25 percent category.
    What we are looking at the council that the Executive order 
has created that is chaired by Secretary Selecky and Secretary 
Shinseki, and I am the vice chair of that council, sir, is the 
first year, since we are just getting this up and running in 
the agencies, the guidance we have given all of the agencies 
is: do better than you did before. Hire more veterans than you 
have done before. Whatever you are doing now, do better. So 
that is this year's directive and goal.
    But at our next council meeting, which is going to be in 
early summer, what is on the agenda to discuss, Mr. Chairman, 
is actually setting hard-target goals that we can look at to 
hold people accountable in the next fiscal year, where we are 
giving them adequate warning to prepare.
    What we are looking at as an approach that is being 
discussed is, if you are in the 5 to 10 percent hiring, then 
you have to do more. We are going to put a higher burden on 
your shoulders to catch up. Obviously, if you are at DOD and 
you are already at 50 percent, it is kind of hard. They are not 
going to be able to have that same percentage increase.
    So we are asking those agencies at the top to hold the 
line, while we bring the ones at the bottom up. And so next 
year we are going to have pretty good hard goals--and the next 
council meeting is going to be discussing this--to set those 
specific priorities, Mr. Chairman, so we can hold it 
accountable.
    But I can tell you this, back to your first question: we 
are watching these numbers on a month-to-month basis, and if 
they go down we will immediately react. We are not going to let 
our veterans suffer under any program that this administration 
puts in place.
    I am concerned by some of the issues that you raised and 
that are in existence. We are going to be working with those 
agencies to correct them. But the bottom line is we want those 
numbers to all get better.
    Mr. Lynch. That is very reassuring to hear.
    In closing, I would just say, having spent a lot of time 
with men and women in uniform, you have some very, very, very 
highly trained and very capable people. These are our very best 
in every aspect of it.
    I yield 5 minutes to the ranking member, Mr. Chaffetz of 
Utah.
    Mr. Chaffetz. Thank you. And thank you, again, Director 
Berry, for being here.
    My understanding is we have roughly 2.8 million civilian 
Federal employees that we--go ahead.
    Mr. Berry. Right now the number I have, Mr. Chaffetz, is 
two million.
    Mr. Chaffetz. OK.
    Mr. Berry. I am not sure where you are getting the 0.8, the 
800,000 from. We are happy to work with your staff on that, but 
the civilian work force is, my understand, 2 million.
    Mr. Chaffetz. OK; 2 million.
    Mr. Berry. OK.
    Mr. Chaffetz. And my understanding is that non-Postal 
civilian work force has increased roughly about 105,000 since 
the President took office in January. Again, I know I am 
throwing some numbers at you right off. If that is not it, help 
clarify that for us.
    Mr. Berry. Gotcha.
    Mr. Chaffetz. I want to get the number accurate. In the 
short range and the long range, how many Federal workers are we 
looking to grow and expand? I mean, we have had this massive 
health care bill. We have a lot of other pieces of legislation. 
We are spending at unprecedented levels. From your vantage 
point, how many people are we going to be hiring in the Federal 
Government, new employees, net increases, in the short and long 
range?
    Mr. Berry. Mr. Chaffetz, the majority of those hired that 
you talked about, the increases that have been made, my 
understanding sort of fall into three categories. One is 
veterans' hospitals, where we have been putting in place more 
nurses and more doctors to handle some of the more severe cases 
that are returning from the Middle East. That is 1 percentage 
category. I will get you these exact numbers in response for 
the record.
    Mr. Chaffetz. OK.
    Mr. Berry. The second two major categories are the 
financial regulation that Treasury has had to put into place to 
restore stability to our financial markets has required us to 
do some additional hiring in the regulatory arena in the 
financial industry.
    The third category, the third major category, is Department 
of Homeland Security.
    Clearly, over 80 percent, 80 to 90 percent of the increase 
that you discuss is in those three categories in terms of an 
increase.
    Mr. Chaffetz. OK. And that is looking back. But looking 
forward----
    Mr. Berry. Looking forward, the one thing I think the 
Office of Management and Budget and we are looking at, this 
President is not looking to significantly grow the size of 
Government. But one of the things that we need to be aware of--
--
    Mr. Chaffetz. I disagree with you on that point, but 
continue.
    Mr. Berry. I respectfully would argue that point with you.
    One of the things we need to be aware of and what has 
happened over the past 10 years is there has been a significant 
increase in the number of contractors by the Federal 
Government. What the Office of Management and Budget has 
directed agencies to do now is to go through and define what 
are essential functions that need to be done by Government 
employees----
    Mr. Chaffetz. I appreciate all that. I have to get through 
some other questions here.
    Mr. Berry. OK.
    Mr. Chaffetz. Do you have a net number that you are looking 
toward? You have to have some sort of plans. I mean, you got 
the President to sign off on an expansion plan, and I 
appreciate the goals. Some of the testimony on the second panel 
says at any given time there are 40,000 open jobs on 
USAJOBS.gov, or whatever the Web site address is. How many are 
you planning for?
    Mr. Berry. Well, Mr. Chaffetz, you have to understand----
    Mr. Chaffetz. We are not going to have a net decrease in 
the number of Federal employees?
    Mr. Berry. First, there is no plan for a major increase or 
run-up of the Federal Government. Let me just assure you of 
that. Forty thousand is low. Let me tell you, our average spin 
rate for jobs, out of 2 million people, there is an average, 
between retirements and people moving into other sectors, it is 
between 200,000 and 300,000 people a year that we are hiring on 
a regular basis, so we are regularly recruiting. But that isn't 
additional jobs; those are filling existing jobs.
    Mr. Chaffetz. Undoubtedly. That is why I am trying to 
figure out, because if you go to page 4 of what the President 
put out, which I believe is section 2, paragraph F, it says, 
``Develop a plan to increase the capacity of USAJOBS to provide 
applicants, hiring managers, and human resource professionals 
with information to improve recruitment and hiring process.'' 
That sounds like a laudable goal. What I am trying to get at 
is: it seems that priority one with USAJOBS is to streamline, 
make it work, make it efficient. But what the President put 
forward here is to increase the capacity. It is not working 
now.
    Mr. Berry. If I could, Mr. Chaffetz, explain that?
    Mr. Chaffetz. Yes.
    Mr. Berry. It is not to increase the capacity to grow the 
size of Government. What we do right now is, there are many 
jobs that are not advertised on USAJOBS. We call them the 
excepted service categories. Those are only advertised within 
Government agencies. People don't know about them, and 
Americans aren't allowed to compete for them, and veterans 
don't know about them and are allowed to compete for them.
    And so what the President is concerned about is he wants to 
bring all of those jobs which are----
    Mr. Chaffetz. How many fall into that category?
    Mr. Berry [continuing]. Advertised quietly onto USAJOBS so 
all American citizens and veterans would know what is out there 
and they could apply and compete for them.
    Mr. Chaffetz. Give me a sense of the scope.
    Mr. Berry. It is 2 million, sir. So the----
    Mr. Chaffetz. No. The ones that are not advertised that 
probably should be advertised.
    Mr. Berry. I will have to get you that number.
    In other words, there is no plan and OPM is not driving to 
increase USAJOBS to do any massive hiring at this point in 
time; it is to handle the existing systems that we have in 
place.
    Mr. Chaffetz. I am not trying to lay blame at your feet 
that Government is growing at an exceptionally large rate, but 
most every metric you could look at, that is the reality that 
you are going to have to deal with. And I am very sympathetic 
that you are going to have to hire literally hundreds of 
thousands of people over the course of time. I am just trying 
to get a size of that scope.
    Help me understand how many people. Do we have a metric 
that says how many people are applying per job that is 
available? I mean, are you dealing with seven applicants for 
every available job? I mean, I have no idea what the scope of 
that is.
    Mr. Berry. We can get that for you.
    It really ranges on the position, Mr. Chaffetz, in that 
some are obviously very popular.
    Mr. Chaffetz. Sure.
    Mr. Berry. There are some jobs that are so popular we might 
get as many as 10,000 applications.
    Mr. Chaffetz. What job is that?
    Mr. Berry. So there are many positions that do draw, 
because we are also advertising across the entire country.
    Mr. Chaffetz. I am sure it is not your job.
    Mr. Berry. So when you advertise across the country, just 
the level of interest, we are regularly having to screen 
through thousands of applications per application. So it is a 
rare job where we are only looking at seven resumes, for 
example.
    Mr. Chaffetz. I guess part of what I would like to get 
through, and, again, it is hard in 5 minutes of questioning, is 
USAJOBS is a critical feature for the functionality in a 
Government that operates from coast to coast and beyond. How 
that Web site works, the resources that you need, I think the 
scope, it is a nuance but it is important to me to develop a 
plan to increase the capacity is not just about the capacity. I 
guess the point I am trying to make is: the efficiency, the 
effectiveness, the streamlining of it, I support all of those 
goals, but I would like at some point to have some sort of 
metric to understand how hard that system is being pushed, 
because for a lot of people, it is just not working.
    It sounds like there are a whole lot of jobs out there that 
the Government is hiring that are not even on there yet.
    Mr. Berry. Right.
    Mr. Chaffetz. So if you can help me along the way in 
understanding that, certainly streamlining this from 160 days 
to 80 days to hopefully something that is like 30 days would be 
in everybody's interest.
    I appreciate the time and yield back. Thank you.
    Mr. Lynch. Thank you.
    Mr. Berry. Mr. Chairman, if I could?
    Mr. Lynch. You could.
    Mr. Berry. Just to respond briefly. Mr. Chaffetz, I would 
be very welcome for both your staff and the chairman's staff to 
come down. We are trying to overhaul and we want USAJOBS to be 
efficient to meet the standard of the private sector. The 
reason the President picked 80 days in the memorandum, not only 
was it half of sort of what we were doing now, we did survey, 
when I was with those Fortune 200 companies, Fortune 500 
companies, 80 days is the average standard for Fortune 500 
companies. Obviously, there are positions you can move quicker 
on, but on average, because some complicated jobs take longer--
--
    Mr. Chaffetz. Hey, if you can cut it in half, more power to 
you.
    Mr. Berry. Gotcha. But we welcome you to come and help us 
and look at what we are planning to do with USAJOBS. We are 
very open and transparent about that.
    Mr. Chaffetz. Thank you.
    Mr. Lynch. Thank you.
    Just to sort of put an exclamation point on what the 
ranking member is saying, the last set of numbers that we have, 
I think it was 2007. In 2007, in the competitive hiring area, 
where actually veterans get to have their preference counted, 
of all the people we hired in 2007, 56 percent were in the 
competitive area where veterans could apply their preference, 
but 44 percent of the jobs, 44 percent of the hiring was black 
box. It was outside the open hiring, outside the USAJOBS, 
outside the purview of the American public, outside the purview 
of Congress. Outside, 44 percent of hiring.
    So what we would like to do is get more in the competitive 
piece, and I think your opening remarks are right on, spot on. 
But we would like to see more transparency. That would also 
reduce our anxiety about going around the veterans' preference.
    That is all I have.
    The Chair recognizes the gentlelady from Washington, DC, 
Ms. Eleanor Holmes Norton, for 5 minutes.
    Ms. Norton. Thank you, Mr. Chairman. You opened a line of 
questions that most concerns me. Actually, I was shocked to 
find how many employees are hired outside of competitive 
service. I always brag about how Federal service is 
competitive, and I don't think I am going to brag that way any 
more until I see greater signs of that.
    The ranking member talked about you are going to be hiring 
thousands and thousands. You bet your bottom dollar, because 
your work force disproportionately consists of Baby Boomers who 
came into the Federal Government at the time when Government, I 
suppose starting with Jack Kennedy, when these idealistic young 
people came into the Government and spent their entire service 
here. Yes, it is time for them to go because they are reaching 
retirement age.
    Mr. Chairman, the figures you named I found startling. It 
is as if the Federal service believes it could get a little bit 
pregnant, but you can't. Either you are competitive or you are 
not competitive. When you have such a huge proportion of jobs, 
I can't even understand how we got that many. My line of 
questioning goes to that, because I am interested not only in 
what it does to veterans, but frankly what it does to everybody 
else.
    The so-called Federal career intern program, what 
percentage of Federal employees are hired in that program?
    Mr. Berry. Let me see if I can get you the exact number, 
Ms. Norton, if I could.
    Ms. Norton. I would like that number.
    Mr. Berry. We will get you that number for the record.
    Ms. Norton. Do all agencies have the authority to hire 
under the Federal career intern program?
    Mr. Berry. Yes. That is a delegated authority that goes 
directly to the agency, not through the Office of Personnel 
Management.
    Ms. Norton. So it has been delegated by you to all the 
agencies?
    Mr. Berry. Through the law.
    Ms. Norton. How then can you account for the fact that some 
agencies look like that is how they do hiring, like the 
Department of Homeland Security, and others look like they 
still believe they are in the competitive service?
    Mr. Berry. I am a little bit at a disadvantage, Ms. Norton, 
because the Federal career intern program is one of the ones 
that we are now looking at in-depth, both at our agency. It is 
the subject of a lawsuit right now, of which I am a plaintiff 
in the suit. And the President has directed me to fully 
investigate this program and report back to him within 90 days 
on my recommendations and thoughts and substance of this 
program.
    Ms. Norton. Mr. Berry, give me a legitimate reason. Just 
give me a hypothetical why an agency would use the Federal 
career intern program. What would the agency say, if it were 
asked, which apparently it has not been?
    Mr. Berry. It would be used to bring in students or young 
people into the Government into----
    Ms. Norton. So how long a tenure?
    Mr. Berry [continuing]. Into an experimental category.
    Ms. Norton. How long a tenure do these career interns, that 
is an oxymoron, career and intern. You know, an intern by 
definition, I thought, was supposed to be a short-term 
employee. What is the average term of employment of these 
career intern employees?
    Mr. Berry. As the program is established, they are allowed 
for 2 years under the internship, and if they pass their 
performance evaluations and are in good standing they can then 
be converted into the Civil Service after that 2 years.
    Ms. Norton. Oh, my goodness. And you mean this program has 
been going on without a watchdog at the OPM seeking to make 
sure that it does not become a detour after 2 years around the 
competitive process? There is nobody that has been in charge of 
looking at this program? You don't have anybody in your office 
whose job it was to watch this program?
    Mr. Berry. It has been in existence since 2000, Ms. Norton.
    Ms. Norton. That is a long time, Mr. Berry.
    Mr. Berry. Yes, ma'am.
    Ms. Norton. That is why, when I asked for the figures, 
obviously I mean for you to submit those figures within 2 weeks 
to the chairman of this subcommittee, so we can have some idea 
of what we are talking about. I have no idea what the universe. 
I mean, what kinds of jobs?
    I am concerned because, for example, I am on the Homeland 
Security Committee, and my understanding is that is one of the 
agencies that has used this program more than others. I wonder 
if they are reciting security.
    You know who the Homeland Security Committee is? Let's get 
down. It is really the same agencies they were before. It is 
really the Coast Guard and the Border Patrol, and they are 
really doing 99.9 percent of the same civilian mission and 
function they were doing all along. And I just need to know why 
some agencies, it looks like it is not a lot of agencies, would 
be hiring in this way, others would not be. I just have no fix 
on how one agency would be so much out in front of others. 
Anything you can tell me about them I would most appreciate.
    My time is up.
    Mr. Lynch. I could just perhaps illuminate a little bit. 
The career internship program in 2003 had about 400 
participants back in 2003. Today it has almost 28,000. So we 
have seen it just in the past years----
    Ms. Norton. So that is more than half of your 44,000 non-
career employees then?
    Mr. Lynch. Well, it is a different timeframe, though, 
because I am going from 2003 to today. That is how many are in 
it. It might be a multi-year internship, so I really can't 
measure, but I do know that the total participation rate went 
from 400 to 28,000. That just sends some red flags to me.
    Another one of our Members who has been very energetic and 
very much engaged in the plight of Federal workers and also has 
offered his own legislation regarding the way student 
internships are handled is Mr. Connolly of Virginia, and I now 
recognize him for 5 minutes.
    Mr. Connolly. Thank you, Mr. Chairman. Might I have the 
indulgence to go through my opening statement?
    Mr. Lynch. Absolutely.
    Mr. Connolly. I am sorry I am late.
    Mr. Lynch. I understand you are in a competing committee, 
so you are now recognized for 5 minutes for an opening 
statement.
    Mr. Connolly. I thank the Chair.
    I welcome John Berry and thank him again for his 
leadership.
    The Federal Government faces a daunting challenge to 
recruit and retain public service employees. With 48 percent of 
the Federal work force eligible for retirement some time over 
the next 10 years or so, with projections of 350,000 Federal 
employees retiring as early as 2016, we must expand our 
capacity to recruit and retain highly skilled Federal employees 
to fill crucial positions in Federal agencies.
    President Obama and Director Berry have taken aggressive 
action to reduce delays associated with Federal hiring by 
eliminating anachronistic applicant essay requirements and 
pressing agencies to expedite hiring. Chairman Towns and 
Chairman Lynch have provided visionary leadership on this 
committee by advancing the Federal Retirement Reform Act, the 
Telework Improvements Act, the Paid Parental Leave Act under 
the Domestic Partnership Benefits and Obligations Act, all of 
which I believe will help in facilitating that goal.
    Building on these achievements, I introduced the Federal 
Internship Improvement Act, H.R. 3264, with our colleague, 
Congressman Bilbray of California. As the chairman just 
mentioned, this legislation is a logical complement to our 
committee's comprehensive effort to improve Federal recruitment 
and retention. I greatly appreciate the collaboration of the 
Partnership for Public Service, the National Treasury Employees 
Union, the National Association of Schools and Public Affairs 
and Administration in developing and promoting this 
legislation.
    In light of the President's Executive order directing OPM 
to study the Federal career internship program, I intend, when 
we mark up this bill, to introduce an amendment in the nature 
of a substitute to strike the non-competitive hire portion of 
our intern bill. This will ensure our effort focuses on 
strengthening student internship programs consistent with OPM 
hiring reforms.
    Most Federal agencies have intern programs that lag far 
behind the private sector in conversion of qualified interns to 
full-time employees. In 2007, for example, only 3,939 of 59,510 
student interns became full-time Federal employees, a dismal 
6.6 percent conversion rate. By comparison, in the private 
sector employers converted 50.5 percent of their interns to 
full-time positions in 2007.
    Congressman Bilbray and I worked with the Partnership of 
Public Service and other public service oriented organizations 
to develop the Federal Internship Improvement Act to strengthen 
these programs. This bill requires Federal agencies to report 
on best practices such as whether they conduct exit interviews 
and implement effective intern mentorship programs, whether 
they rotate people around the agencies so they get the full 
panoply of the mission.
    To improve recruitment of interns into full-time positions, 
we must have a better understanding of best practices that 
could be implemented across all Federal agencies with some 
uniformity, which is desperately lacking right now in the 
Federal workplace.
    This committee has made great progress, Mr. Chairman, in 
ensuring that the Federal Government can recruit and retain 
employees in the national capital region's highly competitive 
labor market. I applaud you and Chairman Towns for your 
leadership on these issues and ask that we mark up the Federal 
Internship Improvement Act at the earliest possible date.
    I thank the Chair for my time.
    [The prepared statement of Hon. Gerald E. Connolly 
follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Connolly. If I may now ask just three questions of 
Director Berry.
    Director Berry, why do you think Federal internship 
programs have such a low conversion rate compared to the 
private sector?
    Mr. Berry. Well, Mr. Connolly, first let me thank you and 
Mr. Bilbray and all the members of the committee for your 
concern and attention on this issue. We welcome the energy that 
you have brought to this.
    One of the things I am very pleased to cite in the 
President's memorandum is not only has he asked me to review 
the Federal career internship program, but to propose a 
framework for providing effective pathways into the Federal 
Government for college students and recent college graduates.
    So we very much look forward to working with you and the 
members of the committee on both sides of the aisle over the 
next 90 days to see if we can help craft proposals that will 
allow people to have clean pathways to enter the Federal 
Government that will be understandable to students. Right now 
what we face is a very confusing panoply of options that more 
often than not they just walk away from.
    The conversion rate is very poor. We are looking forward to 
increasing that substantially.
    Obviously, if after we have made this training commitment 
we have provided, the people have performed well, that is a 
great pool to draw on for Federal service. So we need to look 
at all of those options and do what we can to improve those 
numbers.
    There are so many reasons to tell you why they are low now, 
but I think your legislation proposes a lot of great 
suggestions that we need to incorporate, and we will look 
forward to working with you and hopefully expanding this as we 
develop our report back to the President in August.
    Mr. Connolly. Thank you.
    Just one more question if I may, Mr. Berry. Are there 
private sector best practices you think we could benefit from 
in that review? And are you going to be looking at those best 
practices as part of the overall comprehensive look at these 
student internship programs?
    Mr. Berry. Absolutely. Congressman, last fall Dean Elwood 
from the Harvard Kennedy School convened for us a wonderful 
sort of thought conference, and we are looking at actually 
reconvening that now because it was so helpful. Actually, much 
of what you see in the hiring reform not only came out of the 
legislative ideas from this committee, but from that great 
exchange of ideas. What that was was we brought together 
leaders from the private sector, leaders from the nonprofit 
world, leaders from our labor communities who came together and 
really helped us wrestle with a number of these topics.
    One of the things they expressed was concern that we need 
to do a better job of both having clean, clear pathways for 
students to join the Federal work force, and to convert if they 
are doing great work.
    At the same time, we need to make sure that we are honoring 
our merit principles, that we are honoring our veterans' 
preference. So whatever we do, we have to design with those two 
hallmarks in mind, but I think we can do it and I look forward 
to working with you on developing a proposal that we can all 
get behind and be very proud of.
    Mr. Connolly. Thank you.
    Mr. Chairman, I have several letters of support for this 
legislation, and with your consent and that of the committee I 
would ask that they be entered into the record.
    Mr. Lynch. OK. The Chair asks unanimous consent that the 
gentleman's letters of interest be entered into the record.
    Hearing no objection, so ordered.
    [The information referred to follow:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Connolly. I thank the Chair for his indulgence and that 
of my colleagues.
    Mr. Lynch. Our pleasure.
    Let me just back up a little bit. Director, you have taken 
some hostile fire here. I do want to just point out for the 
record that nobody has done anything on this for about 16 
years. That is Democratic and Republican administrations.
    Look, you are here. The President has asked you to come 
here. He has put through a plan to fix something that has been 
broken for a long time, and you deserve credit on that end. I 
just want to get that out front. It is good that you are here. 
It is good that the President has launched this initiative. It 
is a delicate balancing act, like you have laid out here. We 
have to do all these things, but make sure that the veterans 
are OK, we get some young people into the process, and, above 
all, we get good employees, motivated employees here to work in 
the Federal Government.
    We have all those things we are concerned about, but I do 
want to again amplify the fact that you are here, you have a 
plan, and you are going to try to get this thing done, and no 
one else had an appetite to do this until you showed up, so I 
give you great credit for that, and I give the President great 
credit for that, too.
    Now, one of the concerns I have with the Federal career 
internship program is that, first of all, it has just exploded 
in its utilization. Again, it went from 400 people back in 2003 
to almost 28,000 today, and so I am concerned that some 
agencies are using it as a way to circumvent the competitive 
hiring practice. That is out there.
    The other thing is just the human side of this. We have 
some very, very talented career Federal employees that work at 
various agencies, and the impact on them when all of the sudden 
a new administrator comes in, a new secretary perhaps, Cabinet 
secretary, and all of the sudden they start hiring interns 
through a non-competitive, closed process, and these new people 
parachute in at a higher rate of pay and a higher 
responsibility than the person who has been very competently 
doing that job for a long time. That is devastating to our 
morale of Federal employees. I am very concerned about that, as 
well.
    Is there a way to address that where we provide the 
flexibility? I can see it. In Treasury we had all those 
problems with derivatives and collateral debt obligations, 
collateralized debt obligations. This is relatively new. Some 
of the folks coming out of our business schools and engineering 
schools, quite frankly--this is financial engineering--are 
keenly on the cutting edge, so we need to get some of those 
folks in to do that job of policing these things at the SEC and 
elsewhere. Yet, you have career employees in there that are 
very competent. And, as we mentioned before, the veterans' 
preference should be acknowledged and recognized, as well.
    Is there a way that you can see where we can give the 
agencies some flexibility but preserve, in major part, all of 
those other insurances that we have?
    Mr. Berry. Mr. Chairman, just today, just this morning I 
chaired the Chief Human Capital Officers Council Meeting, which 
is the CHICOs, if you will, from each of the Federal agencies, 
and we discussed this issue in full, as we obviously pursued 
the President's memorandum. We have set up a working group on 
this very topic that will help me and our employees at OPM as 
we wrestle with this issue to balance all of these sensitive 
moving parts.
    We want to protect the merit principles. We must protect 
veterans' preference. We do need to provide an avenue for 
students to join our Government and refresh our work force on a 
periodic basis. We need to have controls in place to make sure 
all of these sort of work together, not at cross purposes.
    One of the things we will be doing over the next 90 days 
with that work group and with the help of this committee and 
many others is trying to craft a proposal that we believe will 
keep us on the balance beam and allow us to have something that 
will honor veterans' preference, will honor the merit 
principles, but also give flexibility to the agencies on 
student entry. That is the challenge before us.
    I don't have a proposal to lay in front of you today.
    Mr. Lynch. Mr. Director, let me just interrupt you, because 
my time is very short.
    The idea of getting away from the top three where three 
applicants would be sent over and then folks would have to 
choose from one of the three, now we are talking about going to 
a category selection process, and there could be as many as 20 
or more applicants that are sent over for review. Do you see it 
as something that will help you in terms of balancing all those 
interests, or do you see it more as introducing a new 
complexity into the formula?
    Mr. Berry. Actually, Mr. Chairman, I think it is going to 
help on two fronts. One, it is going to help us on veterans' 
hiring, because right now under the rule of three you could 
have a situation where three candidates score higher than the 
veterans who, even with the extra points that might be added, 
wouldn't have made it into that top three and therefore they 
can't be considered for the position.
    Under going to a category rating, whether you have a well-
qualified or a best-qualified pool, the veterans will be in 
that pool and they will float to the top. So the agencies will 
have to hire from that veteran pool out of those categories 
first before they can reach down into the larger pool.
    Now, in reality I believe it is going to open opportunity 
for our veterans, and that is how we hope this unfolds. We will 
be watching that closely. But where I also think it is going to 
make a huge difference in time and efficiency, what Mr. 
Chaffetz was talking about, is right now, under the rule of 
three, if, let's say we are hiring an accountant and we put 
those 10,000 applicants through the Federal meat grinder and we 
come out with a group of well-qualified people that are super 
that is maybe 30 people, and we only advance three to the 
hiring manager, and they make the selection, everybody else in 
that pool has to start over.
    That, in every private sector company, would be considered 
nuts. Why would you make someone who has already been through 
this, been determined to be best qualified, start over if the 
person literally across the hall from you is hiring an 
accountant? Why not make that pool of people available to 
everybody in your agency who is hiring accountants and say, 
look, we have 30 good accountants here. Interview and hire.
    If we do that, we are going to speed up. We will alleviate 
the frustration of people who are now just being dropped and 
have to start this meat grinder over. We are also going to 
provide more opportunity to veterans, because now, by opening 
that pool and saying anybody hiring accountants in our agency, 
they have to hire of those veterans at the top of that list 
first. So that is going to be more job opportunities for our 
veterans.
    What I would like to do and what I propose it would take 
legislation for this committee to consider, right now, under 
the law, within an agency we can share those pool of 
applicants, so accountants within the Department of Defense 
could be passed around. If HHS is hiring accountants, why 
wouldn't we take advantage of that? The law prevents us from 
doing that right now. It would take a change in the law to 
consider that, and it would be something I would like to 
explore with the committee.
    Mr. Lynch. Interesting idea. I have exhausted my time. 
Thank you for your answer.
    I now recognize the gentleman from Utah, Mr. Chaffetz, for 
5 minutes.
    Mr. Chaffetz. Thank you, Mr. Chairman.
    I want to look at section four of what the President 
issued. It has to do with reporting. It says the OPM basically 
is going to create a new, I take it it is new. Is it new, or is 
there an existing one that I am just not aware of? Shall 
develop a public human resources Web site. I take it that is in 
addition to USAJOBS? Can you help clarify what you envision 
with this new Web site? It says it is going to be public, so is 
that something that everybody can look at, or how is it going 
to work?
    Mr. Berry. This is a public human resources Web site. My 
understanding, Mr. Chaffetz, is that this will be a data base 
of best practices that will be available amongst CHICOs, 
essentially, that we will be creating. As we talked about, as 
larger agencies will be running faster and moving ahead, we 
will be able to share those best practices so the smaller 
agencies with smaller budgets can benefit from that.
    Mr. Chaffetz. I like your optimism, if you think the large 
agencies are going to move faster than the smaller. There is a 
great book out there called, It Is Not the Big that Eat the 
Small; It is the Fast that Eat the Slow.
    Mr. Berry. That is a good point. But it is an attempt to 
essentially create that crossroad where we can share best 
practices and keep that information up to date.
    Mr. Chaffetz. Is there no such sharing mechanism at this 
point?
    Mr. Berry. At this point in time we don't have an easy 
crossroads to do that. This will be doing that. We have been 
building through the CHICO Council a CHICO Web site that allows 
us to share those best practices now. That is essentially the 
origins of how we hope this will grow and develop, and we hope 
it to get deeper and richer.
    Mr. Chaffetz. Now, it says public human resources Web site. 
Is that open to the public? Is that something that we are going 
to be able to look at?
    Mr. Berry. I am not sure. Right now the other thing, there 
are sort of two elements here that may be at play in this 
paragraph, if I could get back to you in detail. One of it is 
we will be developing a dashboard that the public will be able 
to track how we are doing on hiring and moving toward that 80-
day goal.
    So some aspects of this will be available to the public. 
Some aspects of it will be an internal information sharing 
network. I don't mean to imply that all of it will be available 
to the public. Both of those need to nest within this Executive 
order, and we will be designing it such that it meets that 
legal standard.
    Mr. Chaffetz. Give me a sense of the timing. When do you 
think this will be up to speed?
    Mr. Berry. The President directs us to have pretty quick 
turn-around on these things. Most of them are in a 90-day 
timeframe, so we are going to be working very hard to meet that 
objective of doing that.
    Mr. Chaffetz. So you would expect that this Web site is up 
and functional----
    Mr. Berry. That would be our hope and my objective. Now, I 
have to tell you we have just begun.
    Mr. Chaffetz. Hey, if you want to put the noose around your 
neck, go right ahead there.
    Mr. Berry. We are going to try.
    Mr. Chaffetz. All right.
    Mr. Berry. Let's do that. We are going to try.
    Mr. Chaffetz. And help me with going back to the USAJOBS 
Web site and the improvements there. Give me a sense of the 
time line. That is such a critical component. It is how the 
public interfaces. You have an unbelievable number of hits on 
this.
    Mr. Berry. Absolutely.
    Mr. Chaffetz. Give me a sense of what sort of resources. Do 
you have enough resources in place? I mean, how many people are 
working on this and what is the time line of that USAJOBS Web 
site?
    Mr. Berry. Right now we are working very hard. There have 
been major changes that we have been able to implement, even 
already put in place some of them as we began last January.
    Mr. Chaffetz. OK.
    Mr. Berry. And so a total redesign went up in January of 
our USAJOBS site. So far user feedback has been good. 
Obviously, we have a long way to go and it will continue to get 
better, but we are streamlining. It is designed to be 
reflective of the users' needs, not necessarily the agencies as 
much. We are trying to make it as simple and as user friendly 
as we possibly can.
    The next major thing, and we have launched the capacity, is 
to make it available to handle resumes. That is now up and 
running, as well.
    The third major element of this we will be working on are 
assessment tools. One of the things I believe that is going to 
be very helpful, the private sector has been using assessments 
based on resumes that they have spent hundreds of millions of 
dollars developing that the Federal Government hasn't been able 
to utilize because we don't use resumes.
    Well, now that we have gotten onto the resume railroad 
train track, if you will, we will now be able to make available 
and avail ourselves of those private sector assessment tools. 
So what our people and staff, working in concert with CHICOs 
across the Government, will be doing is trying to figure out 
what can we just take off the shelf and use, what can we take 
and modify and use, and----
    Mr. Chaffetz. My time is running short here. Help me with 
the sense of the timing. What should we expect on USAJOBS?
    Mr. Berry. Well, like I say, some have already taken place. 
The resumes is up and running today. The assessment tools will 
be working to stand up within 90 days.
    Mr. Chaffetz. By the end of the year what would you expect?
    Mr. Berry. Clearly, by the end of the year we will have 
refreshed assessment tools by December, by the end of the 
calendar year for you, sir.
    Mr. Chaffetz. OK.
    Thanks, Mr. Chairman. I yield back.
    Mr. Lynch. Thank you.
    The Chair now yields 5 minutes to the gentleman from 
Virginia, Mr. Connolly.
    Mr. Connolly. I thank the Chair.
    I know that there has been some discussion about the growth 
in the number of Federal employees, but I thought I would just 
share for the record, Mr. Chairman, some interesting numbers.
    In 1992 there were 3.083 million Federal employees. By 
2000, at the end of the Clinton administration, there were 
2,702,000, a reduction of 381,000. In the Bush years, Federal 
employment grew by 54,000. And in the Obama administration, 
most of the growth has been in the realm, as you might expect, 
of the census, many of them temporary jobs, obviously. I would 
point out that even if you included all of the growth including 
the census numbers in the Obama administration, added to where 
we were in 2008 when he got elected, the total number of 
Federal employees is still less than the total number of 
Federal employees in 1992 when President George H.W. Bush was 
President.
    I don't know that we are on an orgy of huge expansion in 
the Federal workplace. In fact, my concern is: will we have the 
skill sets, will we have the replacement employees to address 
the demographic imperative of the Baby Boomers who are getting 
ready to retire in enormous numbers?
    I wonder, Director Berry, if you could address that 
challenge.
    Mr. Berry. Mr. Connolly, I think that is why so many of 
these tools that we are discussing today, whether it be student 
entry, many of you have discussed retirement and bringing in or 
having our retirees stay engaged in the work force longer. 
There are a lot of different angles of attack of responding to 
the increased retirement wave we are facing, and we are looking 
at all of those to maintain the skill sets.
    The objective, one of the things we have to be about is 
changing the public dynamic about how public servants are 
perceived, because we won't be able to recruit and retain the 
best and the brightest if we denigrate public service. So one 
of the most important things both parties can do is to help 
elevate the importance of our civil servants, whether they be 
protecting the homeland in Homeland Security, whether they be 
taking care of our veterans in veterans' hospitals, or keeping 
our food safe, or fighting environmental catastrophes, our 
Federal employees are on the front lines. We need to recruit 
good ones so that they can continue to serve the public. We are 
about that, Mr. Connolly.
    Mr. Connolly. One of the things I certainly support and 
applaud, you and the President have taken measures to try to 
streamline hiring so that we cut down on the amount of time it 
takes to actually get into the position advertised, holding in 
abeyance the process. It is my understanding that in some cases 
it has taken as long as 200 days from advertising a position to 
actually getting that person in place; is that correct?
    Mr. Berry. Absolutely, sir. I tell you, hats off to 
Secretary Donovan at HUD. They served as a guinea pig. They had 
one of the highest rates of the length of hiring. Working with 
them intensely over the past year, they have gone from that 200 
category down to below the 80-day category. So it can be done. 
It takes leadership. It takes attention. It takes focus. But it 
can be done.
    The President, in stepping up with this memorandum, has 
said that he wants it done for the Government. We are going to 
drive this hard, sir.
    Mr. Connolly. Can you think of any private sector entity 
that takes 200 days from advertising a job to filling it?
    Mr. Berry. Well, there would be counterparts. I mean, you 
have to understand certain complex positions, it might take 
multiple advertisements to recruit and get the right pool of 
applicants for a highly skilled, specialized job. University 
presidents, for example, oftentimes average over a year to 
recruit, retain, and hire.
    Mr. Connolly. Yes.
    Mr. Berry. To advertise and select.
    So yes, there are counterparts, but it is the standard, the 
average, is what we are going for. The private sector average 
is 80 days. That is what we are going to seek to me.
    Mr. Connolly. Good. Now, on the other side of the coin, 
that is to be applauded because it is necessary to meet lots of 
goals we have to set for ourselves as Federal workplace. On the 
other hand, I know you would agree there are legitimate 
concerns on the part of many of our Federal employees who are 
concerned that, with the best of intentions, in the collapsing 
of that timeframe protections get lost. Competition isn't as 
transparent or as even prevalent as we say we are committed to 
having. Favoritism or nepotism can sometimes substitute for 
quality competition.
    How would you address that, and what safeguards are we 
putting in place to make sure that those fears are not 
materialized?
    Mr. Berry. Well, Mr. Connolly, first----
    Mr. Connolly. I'm sorry, Mr. Chairman. I didn't see the red 
light. I would ask unanimous consent that the Director be 
allowed to answer the question, and I am sorry I went over my 
time.
    Mr. Lynch. That is fine. Please.
    Mr. Berry. Thank you, Mr. Chairman.
    Mr. Connolly, my solemn oath which I took when I took this 
job was to uphold the merit principles, and I can guarantee you 
that I will do everything in my power to ensure that we meet 
those.
    One of the most important things I think I have done that 
will give you greater confidence that we will be able to 
oversee this and to keep track of this as we go is I 
reorganized the Office of Personnel Management and broke out 
our merit system audit and compliance unit to be a stand-alone 
entity with its own assistant director level leadership, with 
its teams around the country that can be monitoring this in the 
agencies, and we will be working with our agency partners, our 
CHICOs, our labor partners to ensure that if there are problems 
we can apply investment immediately, we will be able to get to 
the bottom of them, and we will sort them out and ensure that 
both merit system and veterans' preference is protected.
    Mr. Lynch. Thank you.
    In my opinion, Director, you have suffered enough, but I 
might not have unanimity up here.
    Mr. Connolly, Mr. Chaffetz, do you have any further 
questions?
    [No response.]
    Mr. Lynch. All set.
    I want to thank you for your testimony. I want to thank you 
for your great work. We will have to monitor this, obviously. 
Mr. Chaffetz had some numbers about pure employment numbers, 
and then we also wanted to have a month-by-month tally on how 
we are doing with veterans hiring, even with this new model in 
place. Those are our principal concerns.
    Mr. Berry. Mr. Chaffetz, in apology to you, the confusion 
between our two numbers, the 2.8 and the 2, the 0.8 is the 
Postal Service workers. I usually don't account for them in my 
number. That is where you are getting the 2.8. That would 
reflect all Postal Service workers, as well. I don't consider 
them in the U.S. Civil Service system, which is why we had that 
disagreement at the beginning. My apology for that.
    Mr. Lynch. Thank you, sir. You have a good day.
    I have a markup in the committee down the hall here, 
Financial Services, so I am going to ask the next set of 
witnesses to come forward. I am going to bid you good day and I 
am going to ask, if I have to run down the hall, Mr. Connolly 
if he could Chair.
    Welcome to you all. We have a great panel here of 
individuals and experts who I think will be of great value to 
the committee in its work.
    I want to assure you that I have read all of your testimony 
last night, so, while I am down there voting in the other 
committee, I won't miss anything.
    It is the custom of this committee to have all witnesses 
sworn who are to offer testimony before it, so I will ask you 
all to rise and raise your right hands.
    [Witnesses sworn.]
    Mr. Lynch. Let the record show that the witnesses have 
answered in the affirmative. I will turn the gavel over to Mr. 
Connolly and be right back.
    Thank you.
    Mr. Connolly [presiding]. Thank you, Mr. Chairman.
    Let me briefly introduce our panelists.
    Mr. David Holway serves as the national president of the 
National Association of Government Employees, the largest State 
employee union in Massachusetts. In 1995 he became the lead 
negotiator for the union, successfully negotiating contracts 
with the Commonwealth of Massachusetts that guaranteed annual 
across-the-board pay increases while protecting and expanding 
the interests and benefits for over 22,000 members.
    Welcome. I hail originally from Massachusetts. Probably 
can't tell that from my accent.
    Jacqueline Simon is the public policy director of the 
American Federation of Government Employees. The American 
Federation watches over the rights of some 600,000 Federal and 
D.C. government employees. An economist by training, Ms. Simon 
has worked to protect the interests of Federal employees at AFG 
for over 20 years.
    Ms. Maureen Gilman is the director of legislation for the 
National Treasury Employees Union. Representing 150,000 Federal 
employees and retirees, Ms. Gilman focuses extensively on Civil 
Service, budget, tax, and appropriations issues. Prior to 
joining the National Treasury Employees Union, she served as 
chief of staff to Congressman Sam Gaidenson of Connecticut.
    Mr. Tim Embree works as a Legislative Associate for the 
Iraq and Afghanistan Veterans of America. He joined the U.S. 
Marine Corps Reserves in 1999 and served two combat tours in 
Iraq before being honorably discharged in 2007. Tim has 
extensive professional experience working in local government 
administration in the midwest.
    Mr. Stephen Crosby is the founding Dean of the John W. 
McCormack Graduate School of Policy Studies at the University 
of Massachusetts in Boston--makes you wonder who is chairing 
this committee--and has nearly 40 years of experience in 
policymaking, entrepreneurship, and nonprofit leadership. Mr. 
Crosby served as Secretary of the Administration of Finance to 
both Governors Paul Cellucci and Jane Swift from 2000 to 2002. 
In this role he supervised 22 agencies with 3,000 employees.
    And finally, not least, Tim McManus, who joined the 
Partnership for Public Service as vice president of education 
and outreach in June 2006. Prior he served as director of 
marketing for the Corporation for National Community Service, 
the Federal agency that administers Senior Corps, Americorps, 
and Learn and Serve America. In that capacity, Mr. McManus was 
responsible for the national marketing, recruitment, and 
outreach strategies designed to engage Americans of all ages 
and backgrounds in service.
    Welcome all of you. We have your prepared statement, and I 
would ask that you summarize your statement in a statement no 
longer than 5 minutes.
    We will go in reverse order of introduction. Mr. Mcmanus, 
why don't you begin?

  STATEMENTS OF TIM McMANUS, VICE PRESIDENT FOR EDUCATION AND 
OUTREACH, PARTNERSHIP FOR PUBLIC SERVICE; STEPHEN CROSBY, DEAN, 
JOHN W. McCORMACK GRADUATE SCHOOL OF POLICY STUDIES, UNIVERSITY 
 OF MASSACHUSETTS; TIM EMBREE, LEGISLATIVE ASSOCIATE, IRAQ AND 
 AFGHANISTAN VETERANS OF AMERICA; MAUREEN GILMAN, LEGISLATIVE 
  AND POLITICAL DIRECTOR, NATIONAL TREASURY EMPLOYEES UNION; 
 JACQUELINE SIMON, PUBLIC POLICY DIRECTOR, AMERICAN FEDERATION 
 OF GOVERNMENT EMPLOYEES, AFL-CIO; AND DAVID HOLWAY, NATIONAL 
 PRESIDENT, NATIONAL ASSOCIATION OF GOVERNMENT EMPLOYEES (SEIU/
                             NAGE)

                    STATEMENT OF TIM McMANUS

    Mr. McManus. Thank you, Mr. Chairman. Thank you, Mr. 
Connolly.
    With more than 550,000 Federal employees planning to retire 
over the next 4 years, today's hearing and this discussion is 
incredibly important and timely. This conversation really, in 
my estimation, is not about how big Government is, but how good 
Government is. How good Government is depends upon the people 
that we are actually able to get into Government.
    I would like to focus my comments today on three key areas 
for transformation that will help us actually attract the best 
talent that we can: fixing the hiring process, developing 
strategic talent pipelines, and making data-driven decisions.
    First, I would like to commend the administration, Director 
Berry, and OPM for making hiring reform and veterans' 
employment in the Federal Government a priority.
    Our research indicates that the biggest obstacle to 
bringing in talent at all levels is the hiring process. More 
than 50 percent of college students say that the No. 1 barrier 
to entry to the Federal Government is the hiring process, and 
more than 60 percent of workers 60 and older believe that the 
hiring process is a deterrent to entering Federal service.
    Last week's announcement of hiring reforms is a significant 
step toward reducing and eliminating some of those barriers; 
however, the real test is yet to come. That is getting it done.
    The elimination of essay-style questions, clearly written 
job descriptions and notices, and timely notifications of 
applicants are, again, good first steps, but they are only 
first steps.
    Further, we support the use of category ranking, allowing 
agencies to consider a larger pool of qualified applicants. We, 
like Director Berry, believe that will, in fact, lead to more 
veterans being hired and more veterans being considered.
    Last night the full Senate passed S. 736, the Federal 
Hiring Process Improvement Act. This bill addresses many of the 
same reforms put forth by the administration and OPM. The 
Partnership encourages this subcommittee to champion that 
legislation through the House and to codify those reforms.
    Second, we believe that it is not enough to simply have 
hiring reform and to improve USAJOBS, alone. We need to improve 
existing pipelines of talent and build new pathways into 
Federal service.
    Representative Connolly, your legislation is a first step 
in doing that. As you stated earlier, less than 7 percent of 
Federal interns are converted into full-time employment. If you 
look at the authority that actually provides conversion 
authority, the student career employment program, only 26.7 
percent are converted. Again, compared to the private sector, 
over 50 percent of those interns are converted. We still have a 
lot to do.
    The legislation that you have introduced, the Federal 
Internship Improvement Act, we believe will help agencies 
better understand where their interns come from, how they are 
utilized, the quality of their experiences, and the barriers to 
their conversion. Equally important, the establishment of a 
data base of interns across Government will provide agencies 
with a ready-made pool of qualified talent.
    A provision that is currently in the bill that you have 
introduced allowing for non-competitive conversions if interns 
successfully complete their experience we believe needs to 
remain intact, with a focus, as your legislation does, on 
making internships more accessible to students with clear 
points of contact within Federal agencies and a requirement for 
public posting of those internships, which currently is not the 
case, and coupled with the ultimate assessment tool, direct 
observation of the interns, their work, and their work habits 
mean that conversion makes sense.
    We have already heard a significant amount about the 
Federal career internship program. I would like to just make a 
couple of points on that program right now.
    Given the expanded use by agencies that Chairman Lynch 
referred to and the fact that 15 percent of those hired through 
FCIP are veterans, compared to 8.3 percent of the civilian work 
force, clearly there is some value that agencies see in this 
program and clearly it is producing results. Rescinding the 
Executive order without having an alternative would be unwise. 
Instead, the Partnership supports the process put forth in the 
President's memo for OPM to review and recommend a path forward 
that takes into full consideration veterans' preference and the 
competitive hiring process.
    We also encourage the passage of Roosevelt Scholars Act, 
creating a civilian ROTC program offering graduate level 
scholarships in mission critical fields in exchange for Federal 
service.
    Finally, whether it is the collection of data on the use of 
FCIP, conversion rates of interns, or time to hire, Government 
needs to base decisions on facts, not anecdotes. The old adage 
what gets measured matters we believe is, in fact, the case 
here, and what matters is ensuring that we have the right 
talent for the right jobs.
    Thank you very much. I look forward to your questions.
    [The prepared statement of Mr. McManus follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Connolly. Thank you, Mr. McManus.
    Mr. Crosby.

                  STATEMENT OF STEPHEN CROSBY

    Mr. Crosby. Thank you, Mr. Chairman. As you intimated, the 
namesake of my college, former Speaker John McCormack held the 
seat of the storied South Boston Congressional seat now held by 
the chairman of this committee, but I am here strictly on the 
merits.
    Over the course of the last 50 years, there has been an 
evolving realization that Government needs highly educated and 
trained workers to respond to the increasingly complex 
challenges facing this country. As a consequence, schools of 
public policy, public service, and public administration, such 
as mine, have developed for the express purpose of providing 
education and training for the design, evaluation, and 
implementation of public policy.
    The graduates of our programs are intentionally and 
thoroughly trained to improve the management and quality of 
public service. We are confident that it is in the public 
interest to pass legislation which assures that the graduates 
of these schools have a clear path to employment in the Federal 
Government and have at least a level playing field for 
accessing Governmental positions.
    As you in the Congress know better than I, the next couple 
of decades will see a huge cohort of experienced public 
officials, Federal public officials, reaching retirement age, 
thus creating a tremendous demand for people in public service. 
Graduate schools like mine are committed to preparing students 
to meet this great demand, but the present system of hiring 
impedes this cohort of job candidates, as you know so well, 
from readily accessing the Federal system. The supply and 
demand for graduate students exists, but the pipeline is 
broken.
    The current hiring process is a confusing, poorly 
advertised, drawn-out process that fails to match or 
proactively recruit future talent. USAJOBS.gov's automated 
process places a premium on qualifications such as professional 
work experience, especially internal candidates, and veterans' 
preference, neither of which many, if not most, students 
possess.
    Because our candidates are relatively new and relatively 
inexperienced in terms of literal Federal service, despite the 
fact that they have extensive training in the tools of public 
service, they have a difficult time competing for these 
positions.
    As a former Secretary of Administration in Finance, working 
for the Governor of Massachusetts, I never thought that I would 
call for more legislative oversight of the custodial functions 
of the executive branch, but it is clear to me that in this 
case such oversight is appropriate and that this legislation 
will give the executive branch the tools to improve its hiring 
practices.
    I support S. 736, the Federal Hiring Process Improvement 
Act, and strongly encourage the introduction of a similar bill 
in the House because the bill represents several elements that 
lay the groundwork for establishing a working Federal hiring 
pipeline. The bill requires agencies to develop plans to 
identify hiring needs, the kind of strategic questions that 
were being asked of Mr. Berry earlier on, and recruitment 
strategies, shorten the hiring process, and make it more 
applicant friendly. It would also attempt to maintain an 
inventory of Federal job applicants and measure the 
effectiveness of hiring reform efforts.
    I also approve your legislation, H.R. 3264, the Federal 
Internship Reform Bill, as it will attempt to open up the 
Federal hiring process to continued use of internships, which 
are highly competitive programs that can and should attract the 
best and the brightest from our graduate programs.
    Specifically, I find the following provisions in H.R. 3264 
to be attractive: data collection. Each agency that uses intern 
programs is required to collect and track data into an annual 
report that is sent to OPM, the kind of data that the members 
of the committee have been asking for an have been unable to 
get. We believe measuring and using such metrics will permit 
agencies to use interns effectively and assist Congress in its 
important oversight responsibilities.
    Accountability. Each agency is required to create an 
internship coordinator. This creates accountability for the 
ultimate implementation of the intent of the legislation.
    Definitions. The definitions of what we mean by intern and 
internships in order that abuses do not follow must be clear. 
They should connect directly to student status and should be 
restricted to those students who are currently registered in a 
regularly accredited university or college and be within 2 
years of graduating from such college.
    I think I can safely speak for the almost 300 other deans 
and directors of graduate public schools across the country, as 
well as for the deans and leaders of other graduate programs 
such as engineering, business, public health, and others that 
the pathways to Federal service need to be clear in order to 
attract the right people for the right positions.
    The Executive Memorandum from the President that has been 
much discussed here today is, indeed, a step in the right 
direction. I believe that legislation such as that I am 
speaking on today is required and is an important safeguard for 
sustaining the ongoing reform efforts.
    Ultimately, this is not just about Federal jobs and the 
need to hire more students. Federal hiring reform is about 
ensuring the efficiency and effectiveness of the Federal 
Government in coming decades and our ability to tackle the 
tough public problems we face. At a time of diminishing 
resources juxtaposed with ever more complicated public policy 
challenges, these modest steps in improved Government 
performance are steps we simply must not fail to take.
    [The prepared statement of Mr. Crosby follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Connolly. Thank you, Mr. Crosby.
    Mr. Embree.

                    STATEMENT OF TIM EMBREE

    Mr. Embree. Mr. Chairman, ranking member, and members of 
this committee, on behalf of Iraq and Afghanistan Veterans of 
America's 180,000 members and supporters, thank you for 
inviting IAVA to testify today.
    My name is Tim Embree, and I am from St. Louis, MO, and I 
served two tours in Iraq in the U.S. Marine Corps Reserve. Iraq 
and Afghanistan era veterans are facing staggering unemployment 
rates. Many veterans want to remain in public service, but are 
faced with a Federal Government that shockingly does not 
understand the value and skills veterans bring to the work 
force. Transforming the Federal hiring process is crucial to 
encourage the hiring of more veterans throughout the Federal 
Government and to demonstrating to a new generation of veterans 
that America has their backs.
    IAVA welcomes the opportunity to discuss this issue at 
length with you today. America's newest veterans face serious 
employment challenges. The difficult process of returning to 
civilian life is further complicated by the most severe 
economic recession in decades.
    Compounding the difficulty, Iraq and Afghanistan veterans 
leaving the active duty military often find civilian employers 
do not understand the value of their skills and military 
experience. Civilian employers have a lot to learn, and IAVA is 
leading the fight to promote the skills of our country's 
veterans to bring to the work force with the Department of 
Labor and different private organizations. Veterans coming home 
from war should be able to expect strong hiring support from 
their Federal Government.
    The Federal Government hires nearly three times as many 
veterans as the civilian business community, but this compares 
and is disingenuous. Being three times better than poor is 
nothing to brag about.
    The Federal Government claims that veterans make up nearly 
25 percent of their work force; however, when we remove the 
Department of Defense, Veteran Affairs, and Homeland Security 
from the total, the number of veterans employed by the Federal 
Government plummets to an average of less than 10 percent per 
department.
    The experiences of previous generations of veterans 
suggests that today's veterans may struggle to find jobs within 
our Government for years to come. Unless Congress acts now by 
improving the Federal hiring process, many qualified vets will 
continue to be left out of public service.
    I want to introduce you to an IAVA member, Tyler from 
Kansas. Tyler served in the Army in counter-intelligence. He 
has a bachelor's degree in social work with a minor in 
psychology. Tyler applied for a position in the FBA as an 
investigative operations analyst. He qualified under superior 
academic achievement for both the GS-5 and 7 pay grade, and his 
cumulative score was over 107, which included his 10 points for 
a 70 percent service-connected disability rating. With Tyler's 
military experience, college degree, and veterans' preference, 
most people would think he stood a pretty good chance to get 
the job. Tyler was notified within three business days that he 
did not get the job.
    Tyler was interested in learning more, and he was informed 
that the hiring office decided to hire internally and did not 
consider any of the external applicants.
    Tyler is now pursuing two graduate degrees concurrently, 
but I have to ask: how many highly qualified veterans who want 
to continue working in public service are being passed over 
each day?
    IAVA applauds the initial steps being taken by the Office 
of Personnel Management and the Department of Labor. Their 
Government-wide veterans recruitment and employment strategic 
plan lays out an ambitious set of goals. But the Federal 
Government cannot do it alone. The business and VSO community 
must also be involved to create the anti-stigma campaign 
described in their strategic plan. All employers must learn 
that veterans offer more than just punctuality, a positive 
attitude, and a professional appearance.
    Many veterans possess highly desired management skills such 
as personnel management and budgeting. They may not be up on 
the newest management buzz words, but their skills have been 
tested under the most challenging of circumstances. The Federal 
Government invests over $6 billion a year in military training, 
yet they don't take advantage of their own investment. No 
reasonable CEO would ever cede that investment without a fight, 
but the Federal Government does this every day.
    Finally, IAVA was troubled to learn the Troubled Asset 
Relief Program [TARP], which authorized up to $770 billion to 
bail out banks, exempted these very banks who are receiving 
Federal bailouts from any veteran hiring requirements. 
Protections were included for minorities, women, and disabled 
individuals, but not for our veterans. IAVA believes that TARP 
and all future stimulus programs must include veterans' hiring 
preferences.
    Thank you for your time today. I look forward to answering 
any questions you may have.
    [The prepared statement of Mr. Embree follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Connolly. Thank you, and I thank you for your 
testimony. Boy, I agree with what you just said. It is one of 
several problems with TARP.
    Ms. Gilman.

                  STATEMENT OF MAUREEN GILMAN

    Ms. Gilman. Congressman Connolly, I am pleased to be here 
today on behalf of NTEU to discuss Federal hiring processes.
    Since the time of President Theodore Roosevelt, the Federal 
Civil Service has operated under a merit-based hiring system 
that has resulted in one of the most talented, non-partisan, 
diverse, and corruption-free work forces in the world. NTEU 
believes that improvements to hiring processes can and must be 
made within the parameters of well-established merit principles 
that have made our civil service system so successful.
    Like others, NTEU has been frustrated with the slow pace of 
hiring, and we commend the administration for taking action to 
streamline recruitment and selection processes.
    In his May 11th memorandum, the President directed agencies 
to implement numerous changes to Federal hiring processes. One 
change is the elimination of long essays known as knowledge, 
skills, and abilities [KSAs], in the initial application in 
favor of cover letters and resumes. NTEU supports this change, 
but would caution that the key component of merit-based hiring 
is having valid and objective assessments of a candidate's 
ability to do the job, and we are anxious to do more about new 
assessment tools that are proposed to replace KSAs.
    The administration's recent directives also call for the 
use of category hiring instead of a procedure known as the rule 
of three. Under the rule of three, applicants are assessed and 
ranked based on numerical scores. Points are added for 
veterans' preference, and the selecting official can hire from 
among the top three names on the list. In 2002, Congress 
granted agencies the option of also using category rating, 
which allows selecting officials to choose from a larger group 
of candidates.
    Many hiring officials have continued to use the rule of 
three, which is a merit-based, objective, and transparent 
selection process, and we question the need to take away 
agencies' flexibility to choose between these hiring options by 
prohibiting the use of the rule of three.
    Overall, NTEU believes that reforms to the competitive 
hiring process will accomplish little if agencies are permitted 
to continue to avoid competitive hiring by misusing accepted 
service hiring authority primarily through the use of the 
Federal career intern program [FCIP]. The administration's May 
11th memo directed OPM to conduct a 90-day review of FCIP. NTEU 
supports this, and we believe an objective review will result 
in a recommendation to end the program.
    The FCIP was originally billed as a limited use special 
hiring authority designed to provide 2-year training and 
development internships. Instead, it has become the hiring 
method of choice for many agencies. In its first year, about 
400 employees were hired under FCIP. In 2009, there were a 
staggering 26,709 FCIP hires.
    Since 2003, U.S. Customs and Border Protection has used 
FCIP as its exclusive method for hiring all incoming Customs 
and Border Protection officers.
    A 2005 Merit Systems Protection Board report found that 
agencies using FCIP hiring ``relied on limited tools to recruit 
applicants to the program, used weak pre-hire assessment tools, 
and failed to use the internship as a trial period to correct 
weak assessment tools. Others did not provide training and 
development activities to career interns, as required.''
    The report also highlighted that there is no requirement 
that vacancies be publicly announced, resulting in veterans' 
preference eligible candidates not learning about and applying 
for positions. I believe, unfortunately, that FCIP hiring 
authority has been used by some precisely because it allows 
veterans' preference to be circumvented without detection.
    Just last month the EPA Inspector General found that one of 
its regional offices engaged in prohibited personnel practices 
when using FCIP hiring authority. The IG's report included an 
email from the hiring official stating they needed to hire 
under FCIP because they did not ``want to risk losing the 
candidates we want to hire who may get blocked by veterans via 
USAJOBS.''
    The FCIP allows agencies to hire without appropriate notice 
and without appropriate deference to veterans' preference. It 
is not an internship program under any commonly accepted 
definition, and should be ended.
    In terms of real internships, NTEU believes that the 
current Federal intern programs, the student career experience 
program, and the Presidential management fellows program should 
be the building blocks for attracting students to the 
Government. We have no problemmaking exceptions to the normal 
hiring practices to draw these talented individuals to public 
service under these limited programs.
    Thank you again for this opportunity to present NTEU's 
views. I would be happy to answer any questions.
    [The prepared statement of Ms. Gilman follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Connolly. Thank you.
    Ms. Simon.

                 STATEMENT OF JACQUELINE SIMON

    Ms. Simon. Congressman Connolly, thank you for the 
opportunity to testify today. I would like to focus my 
statement today on the abuse of the Federal Career Intern 
Program [FCIP]. I am going to focus on FCIP because, although 
AFGE generally supports the President's reform for the 
competitive service, we do not believe that these reforms will 
have much impact unless the non-competitive or accepted 
service, FCIP, is drastically curtailed.
    The FCIP is the Government's most widely used and 
problematic special hiring authority. It is essentially a 
direct hiring program that bypasses open competition and 
veterans' preference and circumvents career ladder promotion 
opportunities for the incumbent work force. FCIP gives agencies 
enormous discretionary authority to hire employees without 
using competitive hiring processes or the public notice 
ordinarily required by law.
    AFGE strongly objects to the continued use of the FCIP 
because it has nearly superseded the competitive service and 
because it has become a preferred vehicle for favoritism.
    The original purpose of FCIP was supposedly ``to attract 
exceptional men and women to the Federal work force who have 
diverse professional experiences, academic training, and 
competencies'' and to prepare them for careers in analyzing and 
implementing public programs.
    Based on reports from our members, however, agencies have 
strayed from this purpose by using it as a closed hiring system 
that does not reach many qualified members of the American 
public or current Federal employees. AFGE does not believe that 
the Federal Government can succeed if its primary hiring 
process evades open competition, the merit system principles, 
or simple standards of fairness in hiring.
    In the meantime, Federal agencies where we represent the 
employees, such as the Border Patrol, other components of DHS, 
and Social Security have used FCIP as the almost exclusive 
hiring authority for thousands of newly hired employees. A 2007 
GAO report showed that DHS used FCIP more than any other 
recruitment tool for new permanent hires. Based on these 
numbers, it seems clear that FCIP hiring has extended well 
beyond the limited number of professional, scientific, and 
administrative positions that it was initially envisioned to 
serve.
    Agencies looking for an easy way out of the responsibility 
to honor veterans' preference and open competition have 
subverted the purpose of FCIP. It now represents an 
unrestricted use of a hiring authority that is extremely 
subjective and that grants managers a degree of discretion that 
shouldn't exist in Federal hiring. Further, managers have 
almost total control over newly hired employees because of the 
absence of procedural due process protections such as adverse 
action appeal rights, and a probationary period that is double 
the length for employees hired under the competitive processes.
    Combined with FCIP's lack of transparency, the above 
problems have turned FCIP into a step backward from the basic 
Civil Service protections first introduced by the Pendleton Act 
in 1881. AFGE has urged the Obama administration to eliminate 
the FCIP, limit it to a small number of positions, or revise 
the program significantly in order to strike a more appropriate 
balance between the need for hiring flexibility and the 
imperative to uphold the principles of transparency and 
fairness.
    AFGE is extremely sensitive to agencies' pleas with regard 
to expedited hiring, especially in the context of in-sourcing 
jobs that were inappropriately out-sourced in the last decade. 
With the recognition that each FTE in-sourced saves the Federal 
Government around $40,000 per year, that is DOD's estimate, the 
financial motivation to in-source is substantial. It has become 
routine for agencies to complain that the competitive hiring 
process is too cumbersome or time consuming and use this as an 
excuse either to resist or delay in-sourcing or to revert to 
non-competitive hiring like the FCIP.
    AFGE does support the administration's efforts to modernize 
and expedite the competitive hiring process, and we are hopeful 
that with proper training and resources managers of agencies 
throughout the Federal Government will make use of these new 
procedures.
    We urge the committee to enact legislation that would 
restrict the use and abuse of all direct hiring authorities in 
general, and the Federal Career Internship program in 
particular.
    Numerical limits, at a minimum, and other restrictions on 
FCIP should be accompanied by hiring reforms and increased 
resources available to agency human resources offices to 
expedite both in-sourcing and the hiring of the next generation 
of Federal employees.
    Thank you.
    [The prepared statement of Ms. Simon follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Connolly. Thank you. I know we are going to return to 
that question. Thank you, Ms. Simon.
    Mr. Holway.

                   STATEMENT OF DAVID HOLWAY

    Mr. Holway. Congressman Connolly, I thank the committee for 
the opportunity to testify today.
    The Federal Government is in dire need of hiring reform. 
The current hiring process used by Federal agencies is 
cumbersome, confusing, and slow. Vacancies often take 6 months 
or more to fill. Those who do attempt to apply for Federal 
positions are often baffled by unique requirements or apply and 
never hear back from agencies again.
    To call the Federal hiring process frustrating would an 
understatement. The outcome of this process is predictable. 
Federal agencies often fail to attract the best possible 
candidates. This failure ultimately affects agency productivity 
and minimizes the value Federal agencies provide to the 
American people.
    I believe our country is at a crossroads where hiring 
reform has never been so critical. An improved Federal hiring 
system can help alleviate two major crises. The first is the 
economic downturn. The members of this subcommittee know well 
what this economic slump has done to our country's work force. 
Unemployment is hovering around 10 percent. Even though some 
seem to think we may be turning the corner in this recession, 
many American workers have not begun to feel real improvement.
    I do not need to tell you that times are tough out there. 
You see it in your districts every day. We need jobs. People 
want to work.
    You can help put Americans back to work through your 
efforts on this subcommittee by highlighting Federal hiring 
reform. USAJOBS.gov, an online clearinghouse for Federal jobs, 
had 40,000 vacancies listed last week. These are good-paying, 
budgeted jobs, but the time is short and between posting 
vacancies and filling them tens of thousands of Americans will 
be put back to work.
    The second crisis we face is not as visible but it is just 
as real and has been discussed today. Baby Boomers are reaching 
their retirement years. Federal Government demographics 
indicate that agencies will begin to experience a tidal wave of 
retirements. Quality applicants simply will not wait 6 months. 
People deserve a streamlined hiring process that is respectful 
to applicants.
    NAGE is encouraged to see the White House and OPM take 
interest in this critical issue. Last week President Obama 
issued an Executive Memo to Federal agencies instructing them 
to make much-needed reforms to their hiring processes. It is 
clear that the administration has an appreciation for the fact 
that the workers are what make Federal agencies perform 
effectively.
    The Federal Government simply cannot function without a 
knowledgeable, motivated, and skilled work force. Finding the 
right people with the right skills in a reasonable period of 
time is critical to recruiting and maintaining that work force.
    I want to talk about how the cumbersome Federal hiring 
process impacts the agencies where we have members. The VA 
health care providers, Federal police, and emergency service 
workers are the people I want to talk about. Failing to fill 
critical vacancies in these areas can be a matter of life and 
death.
    The VA estimates it will need to hire over 40,000 health 
care workers within the next few years. VA hospitals need a 
hiring process that does not delay the delivery of care to 
veterans. A shortage of nurses often leads to unsafe patient-
to-staff ratios, which has shown to adversely impact patient 
outcomes. Our veterans deserve better.
    DOD projects that more than half of the police officers 
guarding our military facilities will need to be replaced 
within the next few years. We need to be able to replace these 
Federal police officers in a timely fashion or we risk 
experiencing a lapse in security at these installations. The 
possibility of such a mistake is unacceptable.
    Regarding the White House's emphasis on hiring reform, we 
believe President Obama and OPM Director Berry are moving in 
the right direction, but, as they say, the devil is in the 
details. Their plan is good, but it will not be a success 
unless all the agencies are committed and diligent about 
implementing this plan directly. It is also critical that 
reforms do not undermine the merit systems principles or weaken 
veterans' preference.
    Regarding some of the specifics, we applaud the elimination 
of lengthy knowledge, skills, and abilities essays. We view 
favorably the abolishment of the arbitrary rule of three. We 
applaud the requirement to tell applicants where they stand at 
four points during the application process. We approve of 
bringing operational managers and supervisors into the hiring 
process early and more fully. And we are pleased that the 
administration is taking steps to review the Federal career 
internship program and potentially reduce the Government's 
reliance on it.
    Thank you.
    [The prepared statement of Mr. Holway follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Connolly. Thank you, Mr. Holway. I feel like I am back 
home. Thank you very much.
    Mr. Holway. I'm sure you understood some of what I said.
    Mr. Connolly. I want the thank you all for your testimony. 
I see our chairman has returned.
    Just a word of caution. Votes are about to be called, and I 
think we have four votes, so we are going to have to probably 
at some point interrupt, and I would urge everyone to be 
concise in their answers so we can try to get in as much as we 
can.
    Before I return the gavel to Mr. Lynch, let me just ask Mr. 
McManus, Mr. Crosby, and Ms. Gilman, we have worked with you 
and your respective organizations on the Internship Improvement 
Act, which is not about FCIP. I want to give you an opportunity 
briefly just to expand on why you support that act.
    Mr. McManus. Again, I think from the Partnership for Public 
Service's standpoint, as I mentioned before, first, it gives 
data to Federal agencies on what is working and what is not 
working. How are they converting interns? How are they using 
interns? Are the internship experiences worthwhile both for the 
intern and for the agency, itself?
    Second, I think the establishment of the data base that 
collects the intern candidates across Government does, in fact, 
provide what I term to be a ready-made pool of candidates for 
long-term Federal service.
    And then, finally, it really is imperative, in our 
estimation, that some conversion authority remain in there. 
Again, with an internship there is no better way to assess a 
candidate for an internship or a long-term position than to 
actually see them do the job and to observe in action both 
their work and their work habits.
    Mr. Crosby. I agree with all that. The only thing that I 
would add is the clarification of understanding what internship 
programs are. In this case we are talking about for students. 
Were the language clear, as this legislation is proposing, we 
wouldn't have the kinds of controversies that we have with FCIP 
now.
    Ms. Gilman. And that is something that NTEU was initially 
concerned about, the definition of intern, especially based on 
the abuses of the Federal Career Intern Program. As long as we 
are dealing with students or recent graduates, we have no 
problem with limited programs that don't use competitive hiring 
to attract students to the Federal Government, and we have had 
a good time working with you and your staff on your legislation 
to ensure that is what that would do.
    Thank you.
    Mr. Lynch [presiding]. Thank you.
    I apologize for having to run out.
    I do want to just offer a special welcome to President 
Holway, who has been a long-time friend and head of NAGE back 
in Massachusetts, and also Dean Crosby, who also serves our 
University of Massachusetts.
    I appreciate all of the witnesses' input, but I have two 
local witnesses here today.
    Let me just ask, I know that, Ms. Gilman, in your testimony 
you raised concerns about the tendency to circumvent the 
competitive hiring process, and especially the impact that 
might have on veterans' hiring. I wonder if you could just 
amplify a little bit? I share that concern, just looking at the 
whole framework, and I am sure you were here for Director 
Berry's testimony. But you see it day to day, and my fear is 
just conjecture, I guess, at my level, but could you just 
expound on that a little bit?
    Ms. Gilman. Yes. We have seen it in many of the agencies 
where we represent employees. I believe Ms. Simon also 
mentioned it at DHS, in particular. They are hiring almost all 
incoming employees through this intern program.
    Some of the people that we represent at DHS, Customs and 
Border Protection officers, Border Patrol agents, they are not 
interns. They go through Federal law enforcement training, 6 
months of training in some instances. They carry guns. They are 
not interns and they are not hired with anybody thinking that 
it is a temporary position. They are not students. They are not 
recent graduates.
    NTEU has actually been involved in three different legal 
challenges to the FCIP, including two on behalf of veterans 
that were passed over in using the FCIP process, and we do 
think that agencies are using it at least partially to avoid 
veterans' preference.
    I think that there was some mention of looking at this 
program at the facts around this program, not just anecdotes, 
and I think that the facts are there. The explosion in the use 
of it, the fact that we have been very successful in the 
preliminary stages of our lawsuits on the fact that it is not 
following merit principles and applying veterans' preference, 
and the number of agencies that are turning to it.
    I believe part of the reason is because there are problems 
with the competitive hiring system that needs reform. But let 
us reform that. Let's not go to this other system and use it to 
completely circumvent competitive hiring and discriminate 
against veterans' preference in the process.
    Mr. Lynch. Thank you.
    That is a call for votes. Fortunately, however, the first 
vote is the naming of a post office. Just for the record, it is 
the Michael C. Rothburg Post Office in Sharon, MA, and I am 
going to go on the record right here saying that I fully 
support the naming of that post office in honor of Michael C. 
Rothburg. The bill is offered by Representative Barney Frank, 
my friend, so I will leave it at that. That will save us about 
40 minutes by me not leaving and coming back, so I think we can 
proceed.
    I will accept that privilege for myself, and I am going to 
yield 5 minutes to Mr. Connolly, who is going to probably have 
to make this vote.
    Thank you.
    Mr. Connolly. I can't miss the naming of a post office in 
Sharon, Mr. Chairman. Thank you very much.
    Mr. McManus, maybe I can start with you. We have heard 
testimony here, and certainly we have heard it elsewhere, that 
whatever the good intentions with the creation of FCIP, it has 
been abused. It has been used to circumvent the system. It has 
been used for non-competitive hiring. It has been used for 
favoritism. It has even been used for nepotism. I was at a 
Federal agency the other day where I heard legion complaints 
about that practice by a palace guard surrounding the 
Secretariat, both in the previous administration and still 
there now.
    Fair criticism? And what should we do about it?
    Mr. McManus. Again, our stance is that we really need to 
take a deep look at it and see what works with it and what 
doesn't work with it.
    Ultimately, Representative Connolly, you are my 
Representative here in the House.
    Mr. Connolly. And you are a wonderful person.
    Mr. McManus. I take Metro in every day along the Orange 
Line and I get to see how many people don't have at least two 
people in their car during HOV. Our solution to that isn't to 
shut down HOV during rush hour, which would prohibit good, 
quality workers from getting to work and strand people outside 
of the box. Our solution to that is enforcement where there are 
violations.
    I think certainly one of the things that we have to take a 
better look at is: have we been enforcing where violation has 
actually taken place? Is that the response to FCIP? Or is it 
simply to say this isn't working, people are violating, and 
therefore we make it available to no one, even those who are 
using it, applying veterans' preference as it is supposed to be 
applied, and again using it in good faith.
    Mr. Connolly. Mr. Embree, that segues nicely into your 
testimony. You testified that if you took away Homeland 
Security, the Defense Department, and Veterans Affairs and you 
looked at the remainder of the Federal work force, fewer than 
10 percent of the employees of that remainder are, in fact, 
veterans, which would suggest, you suggested, that some 
circumvention of veterans' preference is going on.
    How would you correct that, and what do you think we ought 
to do about it?
    Mr. Embree. Thank you very much, sir. Actually, the numbers 
don't lie. The fact of the matter is it is a larger problem 
than just people abusing the FCIP. What it is is there is a 
lack of translation. A lot of times when you hear folks talk 
about hiring a veteran they say the veteran will be on time, 
they will be dressed well, they will be respectful, and they 
won't do drugs.
    As a veteran, I find that insulting because, yes, I will be 
on time, I won't do drugs, I will dress well, but I also have 
management skills. I learned how to work within a budget when I 
lead Marines. And any platoon sergeant, squad leader, company 
commander, they have more management experience than the 
average small business owner. These folks manage not just their 
5-day work week; they manage 7 days a week for these folks, not 
just the individuals, their whole families, be it their 
housing, their pay, their food.
    So what the problem comes down to is a lot of these hiring 
folks throughout Federal Government don't understand that. They 
see veterans' preference as an extra weight to put on their 
shoulders during the hiring process. They don't see the assets 
that these veterans bring to the table. I think that is a major 
problem. A major problem, it is just a major level of ignorance 
across the board.
    As veterans, that is partly our responsibility, too. We 
need to learn the buzz words. We need to learn how our skills 
translate over. But at the same time, the Federal Government, 
the amount of money that is wasted by not reinvesting in our 
veterans and bringing them back into the fold of public service 
is just mind-numbing. So it needs to fall on Federal Government 
as well as the veteran community, as well as the business 
community.
    So right now the strategic plan out there is a good start. 
We feel the VSO community, not just IAVA but all of the VSO 
community, must be a part of this process to make sure we are 
telling folks these management skills and these business skills 
that veterans do bring to the table.
    Mr. Connolly. Thank you. My time is almost up, Mr. 
Chairman, but if I had a little bit more time I would probably 
ask Mr. Holway whether there are best practices in State and 
local governments and in the private sector that you think the 
Federal Government could benefit from in terms of the quality 
of hiring and the process of hiring.
    Mr. Holway. I think the real question here is the 
enforcement. The President has outlined a program, and the 
problem actually is the middle managers, the career middle 
managers who won't implement the program as we see it. So as 
long as Director Berry puts in place a program to make sure the 
people follow the lead of the President and OPM, I think we 
will be way ahead of it.
    As far as veterans' hiring is concerned, in Massachusetts, 
we have a veterans' preference, so if there is a Civil Service 
exam, the veterans go to the top of the list. Disabled veterans 
actually go above them. And they are not given the point system 
that was talked about earlier.
    I really think the president and the Director are on to 
something here. What we want to do is give them as many tools 
as possible to fill these jobs in an expeditious manner with 
the best possible applicants to fill the jobs so we can deliver 
services to the American people.
    Mr. Lynch. OK. Thank you.
    President Holway, just following up on that, you were 
saying earlier on, because you have been in office for a number 
of years, you have seen what has transpired.
    Mr. Holway. Incumbency is a wonderful thing, Mr. Chairman.
    Mr. Lynch. What is that?
    Mr. Holway. Incumbency is a wonderful thing.
    Mr. Lynch. It is. It is. The longer I am here, the more I 
appreciate seniority.
    Mr. Holway. If I remember correctly, the first time you ran 
you said, give a young man a chance. And now you are saying, 
experience counts.
    Mr. Lynch. That is right. That is right.
    You have been able to see, at least over the past 16 years, 
where we have had these problems and they have not been 
addressed. No one has really attempted to tackle this thing, 
and now here is President Obama and Director Berry. I give them 
great credit.
    What do you see as the key? I mean, you mentioned 
enforcement. I know in Massachusetts you have veterans' 
preference but you also have veterans' agents in every single 
town that inform the veterans about what their rights and 
opportunities might be, and then in government you also have 
veterans' agents there at the agencies that are protecting 
those preferences. Is that something that you are seeing 
nationally, or is it something we are going to have to pay 
greater attention to?
    Mr. Holway. I think what Director Berry said earlier was 
that each of the agencies are going to have somebody that is 
charged with overseeing veterans being placed in these 
positions. In Massachusetts at all the job centers there is a 
veteran who is assigned to helping veterans find those jobs, be 
they public or private. But I think that the administration is 
on to something here, to give somebody the responsibility to 
just do that.
    Mr. Lynch. All right.
    Mr. Holway. To make sure the veterans have a shot at these 
jobs and that those numbers that were spoken about earlier of 8 
or 10 percent do, in fact, climb up to approach where the 
Department of Defense is and the VA is.
    Mr. Lynch. All right.
    Ms. Simon, thank you for your testimony here today. Tell me 
a little bit about how the Federal Career Internship Program 
[FCIP], is implemented at DHS. How does that work?
    Ms. Simon. Well, in preparing for today's hearing, I found 
on the U.S. Marshal Service Web page a job announcement for 
deputy U.S. Marshal positions, and it says here, ``The U.S. 
Marshal Service is currently limited to hiring individuals 
under the following programs,'' and it is two career programs, 
FCIP and the centralized student career experience program. In 
other words, the agency was hiring exclusively under 
essentially FCIP.
    I think it is very difficult. Obviously, the people we 
represent right now are already hired into the Federal 
Government, but a lot of them are veterans. We don't know 
exactly the number of our membership that are veterans, but we 
estimate something close to 40 percent, and even more than that 
in certain agencies. Obviously, DOD, DVA, and DHS.
    Mr. Lynch. Is that residual? I mean, obviously since 
September 11, 2001, we consolidated a bunch of agencies.
    Ms. Simon. Yes.
    Mr. Lynch. We actually started doing more robust security, 
so there was hiring at the borders, hiring at the airports. So 
is the percentage of veterans in place, is that residual and we 
have departed from that now?
    Ms. Simon. I don't even know the answer.
    Mr. Lynch. OK.
    Ms. Simon. It is an estimate of our current membership. But 
it is just that what I wanted to say was that FCIP inhibits 
career development opportunities for those veterans, as well, 
either lateral moves or opportunities for promotion, in the 
same way that veterans who are outside the Government are 
having a hard time getting in because of limited advertisement 
of jobs through FCIP. People who are already Federal employees 
who have been preparing to make a move upward or sideways or 
wherever are inhibited because these jobs are reserved for 
FCIP, and our members aren't given the opportunity to compete 
or have their veterans' status count for anything in their 
effort to improve their situation.
    We hear it throughout DHS. We hear it in the Social 
Security Administration. And I think it was Director Berry who 
cited data saying that a lot of people who are veterans have 
been hired under FCIP, and we hear that from our Border Patrol 
Council.
    But that is in some ways beside the point. The fact that it 
is perfectly legal to evade veterans' preference within the 
FCIP is the problem. We want to make it impossible to evade 
veterans' preference except in very extraordinary 
circumstances.
    There is nothing illegal necessary, or maybe there will 
prove to be something illegal about exercise of the authorities 
under the FCIP, but there are clearly shortcomings when they 
are capable of using it to avoid the application of veterans' 
preference.
    Mr. Lynch. Yes.
    I could understand, as you say, there are examples of 
particular individuals, and especially if they deal with 
policy, that have very exacting requirements. I could see that 
an individual agency might say this particular position or 
these positions, this hand full of positions need to be filled 
with such exact requirements that it may require them to go 
outside the competitive practice. But what we are seeing is 
thousands, tens of thousands of people brought in through a 
process that is completely ignoring the veterans' preference 
that we have put in place. It is ignoring the law.
    Ms. Simon. It is ignoring veterans' preference, but I think 
just logically we have a hard time understanding, if your 
requirements are such that you need someone who is truly 
extraordinary, the truly extraordinary people are going to 
survive the competitive process. In fact, they are the ones who 
will excel in the competitive process.
    Mr. Lynch. They are. Yes.
    Ms. Simon. So FCIP is, we think, a way of really avoiding 
the merit system principles and veterans' preference, not 
necessarily to hire the most excellent candidates, but just to 
do things quickly and simply and not take the time to do what 
is required of a public entity like the Federal Government and 
make sure that you have open competition, open advertisement so 
that everyone in the American public has an equal chance of 
competing for these jobs. That is how you really get the best 
Federal worker.
    Mr. Lynch. Very good.
    Mr. Embree, I have spent a fair time myself with our men 
and women in uniform in Iraq and Afghanistan, and they are 
probably the most wired group in terms of being on the 
Internet. I get the e-mails all the time. We have instantaneous 
connection with our troops in the field. So this would seem to 
be a perfect opportunity.
    I have an opportunity to sit with members of our armed 
forces overseas, and oftentimes when they are 6 months away or 
4 months away from redeploying back to the States they are 
questioning me about what opportunities there are back home. 
They are worried about getting back in their home lives, 
getting back to work.
    This would seem like a perfect opportunity for us to create 
that connection for them while they are still in Afghanistan, 
while they are still in Iraq, anticipating coming home or even 
if they go back to Fort Drum or Fort Dix or wherever they go 
back to when they are deployed home. We make use of that time 
with reconnecting them into jobs and job opportunities. Is that 
being optimized right now, that opportunity to make sure that 
our men and women in uniform know they have a job to come back 
to and know that this country embraces them and wants to make 
sure that they get the consideration, the respect that they 
have earned by their service?
    Mr. Embree. Well, sir, thank you for the question. First 
off I want to begin explaining I took my boots off over 2 years 
ago, so I can't say exactly what is happening with the guys in 
the field still humping a pack, carrying a rifle. But when I 
was still there finishing my second deployment, no. The short 
answer is no. You don't feel like you are supported when you 
are coming back. At least you didn't back in 2007.
    Now, maybe it is getting better. I think the first steps 
have begun. I think Department of Labor, Vets, Assistant 
Secretary Jefferson is on the right path. He is talking to the 
VSO community. He is talking to different businesses. He is 
talking to just the individual Marines, Soldiers, Sailors, and 
Airmen about the different skills they bring and how to 
translate them over.
    That is one thing that IAVA has been asking for is a study 
to find out, one, what kind of training translates. So if I am 
a Navy Corpsman on the green side and I am doing field trauma 
work, tracheotomies, putting in IVs, you name it, sucking chest 
wounds, and I get to the civilian side, after all that 
experience I barely qualify to drive an ambulance. So what we 
are asking for is a study to identify the kind of skill level 
and the kind of schooling and education that the military gives 
you and how to translate it over to the civilian side.
    What we want, though, is we want that to better the 
training for our fighting force as well as make the transition 
easier, so when they are coming from the military side to the 
civilian side, the civilian side can automatically look and 
say, oh, that makes sense, you were this MOS so you must have 
had these courses, so they automatically know that, oh, if you 
are a platoon sergeant I know for a fact that you managed 80 
people and you managed a budget of a couple million dollars a 
quarter and you managed these kind of time lines, so I know for 
a fact I can put you as a manager over 20 people very 
comfortably and you would meet all the time lines, you would 
meet all the goals.
    So that is one step that needs to happen. We have talked to 
a few offices. Folks are having that discussion.
    We feel Secretary Jefferson and others and OPM are going 
toward the right direction right now, but it also goes to the 
TAPS program. Now, what TAPS is is the Transition Assistance 
Program, and this is what the Marines and Sailors and Soldiers 
and Airmen you are talking about, they are about to leave 
sector and they are thinking, OK, what am I going to do now? I 
am short. I have only got about 7 months left in. I want to go 
be a police officer. I want to go work in the Post Office. Or I 
don't know what I want to do and maybe I want to stay in public 
service.
    Well, this is the program that is supposed to teach them 
how to write their resume, how to translate their skills so 
when they are having an interview they know how to sell 
themselves. It teaches them how to present themselves to a 
hiring agent.
    Unfortunately, the program is just woefully out of date. I 
believe it has been 17 years since it has been updated.
    Now, DOL is talking about ways to update it, but right now 
it is still death by PowerPoint, and it is not even something 
that you have to do. It is not mandatory. The Marine Corps has 
just recently made it mandatory, but still, mandatory bad 
information doesn't make it good information; it just makes you 
have to sit through it.
    So there are a lot of good starts. We feel that, 
unfortunately, once a lot of these discussions have begun and 
then the VSO community starts pointing out some of the flaws 
and some of the first ideas, that people sometimes get their 
feelings hurt, I guess, and they don't want to take the 
constructive criticism, and I think that sometimes slows down 
the process, but we need to.
    And I think the way to solve that is to keep the VSO 
community involved in every step of the way. I believe that the 
committee right now, the inter-agency committee to implement 
the strategic plan that OMB has rolled out is phenomenal, and 
that is a great start. We would like the VSO community to have 
some input. Just before each meeting give us an idea of what 
kind of things the inter-agency council is going to discuss so 
we can send you guys some well-researched information.
    IAVA has their own research department. We put out reports 
every year. We put out a legislative agenda. We end note these 
things with hundreds and hundreds of sources to help these 
staffs.
    Mr. Lynch. Let me just interrupt. I know they are going to 
do the second vote, and I will have to go for the second, 
third, and fourth votes because they are substantive. But it 
seems to me, just in interacting with those young men and women 
who are about to come back, the military is rightly focused on 
their responsibility in Afghanistan and in Iraq, and when folks 
are deploying out it is a step-down process, and so I think the 
intensity of following those folks when they are re-deploying 
back home is less than when they are part of the operation, the 
military operation in those countries.
    I am just wondering, it seems to be a one-way street. In 
other words, I have men and women on the ground in Iraq and 
Afghanistan who are trying to tie back into the United States, 
into jobs, and they are doing it as individuals. There doesn't 
seem to be any concerted effort to get them placed back here. 
And there doesn't seem to be any effort on our part to reach 
over there and close that loop and to make sure that those 
folks know about the opportunities, and so there is a dialog, a 
two-way street of information going back and forth and 
reassurances for them and their families of what opportunities 
might be there when they finish their tour of duty.
    So I guess what I am asking, would it be helpful, in terms 
of these individual agents that Mr. Holway described that 
Director Berry is going to put in place at these agencies, if 
there would be a two-way street, a five-directional discourse 
so that we let people know over there what is available so that 
they feel like they are wanted, that they are welcomed and 
embraced and that they are a priority in terms of our Federal 
hiring practices.
    Mr. Embree. Well, sir, I don't want to speak outside of my 
lane too far, so I would like to just say that IAVA would love 
to work with your staff to put together some sort of plan for 
that or proposal for that, just because I think there needs to 
be a lot of input from DOD as well as other Government 
agencies, so I don't want to speak----
    Mr. Lynch. Sure. I understand.
    Mr. Embree. I am not an expert on that.
    Mr. Lynch. And I am not talking about allowing private 
recruitment of military in theater, because they have enough to 
do, Department of Defense, with just focusing on one job while 
they are there. I am talking about in that step-down process 
where I know that in many cases units will have their personal 
belongings sent home 90 days ahead of time, and so now they are 
really in a decompress mode where they are stepping down into 
civilian life.
    I think if you can utilize that time period, just to have 
people get in touch with them and let them know what is going 
on, that might offer a better result.
    Dean Crosby, let's talk about the student opportunities 
here for a minute. I am certain that we can benefit by having 
greater flexibility. I think part of the problem that we are 
seeing, look, people wouldn't be circumventing this system if 
it was working, so that is a problem and we have to create some 
flexibility here.
    Could you talk about what you see as being some of the 
obstacles of opening up opportunities for very well-educated, 
well-trained young people coming out of our colleges and 
graduate schools in terms of connecting with the demand that we 
have for their services in the Federal Government?
    Mr. Crosby. Well, I think the obstacles have been pretty 
clearly discussed here, the nature of the systems, as is so 
often the case, you put protections in place and over time they 
become calcified and no longer work, but nobody has been 
looking at these systems.
    The FCIP, I don't know anything about this FCIP program in 
any formal way, but just from what I have heard today it is 
clear that the hiring system is trying to find a way around a 
calcified, non-functional, 160- to 200-day process, and no 
manager anywhere can survive in that kind of an environment. 
Probably a lot of it is not to get around veterans or whatever 
benefits, per se; it is just to try to get around this horrible 
system. That is the same with the issues of students who are 
trying to access the system.
    It is particularly difficult, in the case of our graduate 
students and the graduate programs that are represented by me 
today, because these people don't have any kind of seniority or 
any kind of experience in the Federal system. We hope that they 
will have veteran's status and we are hoping. The GI bill is a 
terrific asset at this point, and collaborating with veterans' 
organizations to get them into these programs, take their 
experience, take their leadership skills, couple it with our 
formal education skills, now you have really got an applicant.
    But the rest of our students who are not veterans have this 
very specialized set of skills that doesn't give them any 
status in the hiring system. None of the metrics or few of the 
metrics reward the kinds of special skills the graduates of our 
programs have, so they are left to fall behind in a system 
which is precluding people who are specifically trained to deal 
with the exigencies of public administration and public policy.
    So the kinds of opportunities these specialized channels 
for students, such as in H.R. 3264 that I know you understand 
well, not numbers that are going to change the whole order of 
magnitude of the employment system, but to give a special 
channel, a special pathway for people with these special 
skills, that is what we are looking for and I think that in the 
long run can have a tremendously positive impact on public 
service without in any significant way stepping on other 
legitimate rights and interests.
    Mr. Lynch. Mr. McManus, the same question. But in light of 
the President's initiative here, are there components there 
that would clear the way for some of the obstructions that have 
existed previously and some that Dean Crosby has articulated?
    Mr. McManus. Yes. I think certainly all of the issues that 
Dean Crosby articulated are spot on in terms of helping to 
clear the pathway.
    Much like the discussion earlier about veterans not 
actually understanding how to translate their skills, I think 
the same is actually true on a college university campus, as 
well. Unfortunately, Government doesn't value education as much 
as it does in-the-seat experience. That has to, in fact, 
change, and that is a cultural change as much as a procedural 
or process change.
    We have to do more to make students aware of the 
opportunities that exist, much like I think we have to do. The 
Partnership would welcome the opportunity to work with you, Mr. 
Chairman, and also Mr. Embree to figure out how we can 
effectively educate vets about opportunities and how they can 
compete, as well.
    I think those two audiences are facing some very similar 
issues in this.
    Mr. Lynch. Well, I apologize. I am going to have to go back 
and vote again. I am going to leave. There are obviously 
dualing committee hearings at the same time, so I am going to 
leave the record open for 5 legislative days for my colleagues 
to submit any questions they might have for you and any other 
testimony to be submitted. I want to thank you for your 
willingness to come forward and help the committee with its 
work. I really do appreciate it. It makes a better process.
    I think as we move forward with the House version of our 
hiring bill, I think we will be well served by your testimony 
and the whole process will be better informed by your input, so 
I appreciate your testimony and I thank you and I wish you have 
a good day.
    Thank you. This committee hearing is now adjourned.
    [Whereupon, at 4:23 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
